<html>
<title> - A NEW DIRECTION FOR FEDERAL OIL SPILL RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    A NEW DIRECTION FOR FEDERAL OIL
                     SPILL RESEARCH AND DEVELOPMENT

=======================================================================



                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2009

                               __________

                           Serial No. 111-29

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
49-820                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                 HON. BRIAN BAIRD, Washington, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant

                            C O N T E N T S

                              June 4, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    12
    Written Statement............................................    13

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    14

Statement by Representative Lynn C. Woolsey, Member, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

                               Witnesses:

Mr. Douglas R. Helton, Incident Operations Coordinator, Office of 
  Response and Restoration, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    21

Dr. Albert D. Venosa, Director, Land Remediation and Pollution 
  Control Division, National Risk Management Research Laboratory, 
  Office of Research and Development (ORD), U.S. Environmental 
  Protection Agency (EPA)
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    26

Rear Admiral James A. Watson, Director of Prevention Policy for 
  Marine Safety, Security and Stewardship, Department of Homeland 
  Security, U.S. Coast Guard
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    32

Mr. Stephen L. Edinger, Administrator, California Department of 
  Fish and Game, Office of Spill Prevention and Response
    Oral Statement...............................................    32
    Written Statement............................................    33
    Biography....................................................    36

Discussion
  Achieving Necessary Research and Development Measures..........    37
  Possible Improvements to Existing Mechanisms...................    39
  Inland Spills..................................................    41
  Containment Booms and University-Agency Cooperation............    43
  Spill Prevention...............................................    45
  Scientific Modeling............................................    47
  Funding for Real-World Tools...................................    48
  Research Efforts as Proportionate to Need......................    49
  Oil Spills and Coral Reefs.....................................    50
  Useful Spin-off Technologies...................................    51
  The Resource of Volunteer Aid..................................    53

              Appendix: Additional Material for the Record

H.R. 2693, Federal Oil Spill Research Program Act................    56

Statement of Minerals Management Service, Department of the 
  Interior, dated June 4, 2009...................................    65

Oil Pollution Research and Technology Plan, Interagency 
  Coordinating Committee on Oil Pollution Research, April 1997...    71

Letter to Jane Wise from Noel Turner, Legislative Affairs 
  Specialist, NOAA Office of Legislative Affairs.................   154


     A NEW DIRECTION FOR FEDERAL OIL SPILL RESEARCH AND DEVELOPMENT

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    A New Direction for Federal Oil

                     Spill Research and Development

                         thursday, june 4, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, June 4th, the Subcommittee on Energy and Environment 
will hold a hearing entitled ``A New Direction for Federal Oil Spill 
Research and Development'' at 2 p.m. in Room 2318 of the Rayburn House 
Office Building. The purpose of the hearing is to examine current 
federal research and development efforts to prevent, detect, or 
mitigate oil discharges and to receive testimony on the Federal Oil 
Spill Research Program Act of 2009.

Witnesses

        <bullet>  Mr. Doug Helton, Incident Operations Coordinator, 
        National Oceanic Atmospheric Administration's (NOAA) Office of 
        Response and Restoration (OR&R). Mr. Helton assists in managing 
        NOAA's scientific support team during oil and chemical spill 
        responses. In addition, he works to ensure that NOAA's oil 
        spill response services are provided quickly and are useful to 
        the U.S. Coast Guard, Environmental Protection Agency, and 
        other on-scene responders.

        <bullet>  Dr. Albert D. Venosa, Director of the Land 
        Remediation and Pollution Control Division at the National Risk 
        Management Research Laboratory, Environmental Protection 
        Agency's Office of Research and Development (ORD). Dr. Venosa 
        directs EPA's research related to oil spill remediation and 
        mitigation. Dr. Venosa's twenty-year tenure in this area of 
        work includes assessing the effectiveness of nutrient 
        formulations in the field for stimulating enhanced bio-
        degradation of contaminated shorelines in Prince William Sound 
        as part of the Alaska Oil Spill Bioremediation Project.

        <bullet>  Rear Admiral James Watson, Director of Prevention 
        Policy for Marine Safety, Security and Stewardship, United 
        States Coast Guard (USCG). Rear Admiral Watson serves as 
        Director of Prevention Policy Development for most legislative 
        mandates regarding oil pollution prevention. His work includes 
        oversight of Vessel Response Plans, oily-water separators, 
        ballast systems, navigation safety systems, and pollution 
        investigations.

        <bullet>  Mr. Stephen Edinger, Director of the Office of Spill 
        Prevention and Response (OSPR), California Department of Fish 
        and Game. Mr. Edinger is the senior State of California 
        Official responsible for oil spill prevention and response. 
        Steve is an experienced law enforcement officer and Incident 
        Commander and served as the State-On-Scene Coordinator for the 
        M/V COSCO BUSAN oil spill response.

Background

    Approximately three million gallons of oil, or refined petroleum 
product, are spilled into U.S. waters every year.\1\ When one of the 
hundreds of annual spills occur, the Federal Government takes primary 
action through the Coast Guard or Environmental Protection Agency 
depending on the location of the accident. As a part of the federal 
response, the National Oceanic and Atmospheric Administration often 
plays a vital role in providing real time data and forecasting to 
assist in the recovery and mitigation efforts. In 2008, NOAA received 
requests for scientific assistance related to 169 environmental 
incidents, three-quarters of which were oil spills.\2\
---------------------------------------------------------------------------
    \1\ National Research Council (2005) ``Oil Spill Dispersants: 
Efficacy and Effects.'' pg. 1.
    \2\ NOOA (2009) FY 2010 Budget Summary. May 11, 2009. pg. 2-31.
---------------------------------------------------------------------------
    In March of 1989, the Exxon Valdez oil tanker ran aground on Bligh 
Reef in Alaska's Prince William Sound, rupturing its hull and spilling 
nearly 11 million gallons of crude oil. The oil slick spread over 
11,000 square miles of ocean and onto over 350 miles of beaches in 
Prince William Sound. It was the largest single oil spill in U.S. 
coastal waters.\3\ The direct result of Exxon Valdez was the passing of 
the Oil Pollution Act of 1990 (OPA), which clarified jurisdictional 
ambiguities in previous legislation. The Act addressed many factors in 
preventing, detecting, or mitigating oil spills.
---------------------------------------------------------------------------
    \3\ NOAA (2009) Exxon Valdez Oil Spill Website. National Ocean 
Service. Office of Response and Restoration Website. http://
response.restoration.noaa.gov/. Accessed on May 20, 2009.
---------------------------------------------------------------------------
    Title VII of OPA created an interagency oil spill research and 
technology program nineteen years ago. According to the Committee on 
the Marine Transportation of Heavy Oils, which was established by the 
National Research Council (NRC) at the request of the U.S. Coast Guard, 
for most spills only about 10 to 15 percent of the oil is recovered, 
and the best recovery rates are probably about 30 percent.\4\ Given 
these low recovery percentages, additional research and development is 
necessary to reach acceptable levels of mitigation.
---------------------------------------------------------------------------
    \4\ National Research Council (1999) Spills of Non-Floating Oils. 
Committee on Marine Transportation of Heavy Oils. National Research 
Council. National Academy Press. Washington, D.C. Pg. v.

---------------------------------------------------------------------------
The Oil Pollution Act of 1990, P.L. 101-380 (8-18-1990)

Title VII--Oil Pollution Research and Development Program
    The Oil Pollution Act's Title VII created a program to conduct 
research and development on oil spill prevention and response. The 
Title established an Interagency Coordinating Committee to coordinate a 
comprehensive research and development effort among 14 federal agencies 
and to coordinate federal research and development activities with 
those of State and local governments, industries, universities, other 
foreign governments. The law designated the Coast Guard as the 
Committee Chairman and defined membership to include:

         1.  The National Oceanic and Atmospheric Administration (DOC)

         2.  National Institute of Standards and Technology (DOC)

         3.  The Department of Energy

         4.  The Minerals Management Service (DOI)

         5.  The United States Fish and Wildlife Service (DOI)

         6.  The United States Coast Guard (Originally DOT, now DHS)

         7.  The Maritime Administration (Originally DOT, now DHS)

         8.  The Pipeline and Hazardous Materials Safety 
        Administration\5\ (DOT)
---------------------------------------------------------------------------
    \5\ Originally called the Research and Special Projects 
Administration this program was renamed the Pipeline and Hazardous 
Materials Safety Administration in the Norman Y. Mineta Research and 
Special Programs Improvement Act (P.L. 108-426).

---------------------------------------------------------------------------
         9.  The Army Corps of Engineers (DOD)

        10.  The Navy (DOD)

        11.  The Environmental Protection Administration

        12.  The National Aeronautics and Space Administration

        13.  The United States Fire Administration (now DHS)

        14.  The Federal Emergency management Agency (now DHS)

    The research program was authorized at $28 million per year for 
five years with $6 million per year of the total designated for the 
Regional Research Program.
    The Committee was tasked with developing a research plan to 
investigate technologies to prevent and clean up spills, ways to 
restore damaged natural resources, and the long-term environmental 
effects of spills. In addition, the Committee was tasked with the 
management of a Regional Research Program. The Regional program 
administers competitive grants to universities or other research 
institutions to address regional oil pollution needs. OPA authorized a 
total of $600,000 per year over five years to each of the ten Coast 
Guard regions. Finally, the Title directed the Coast Guard to conduct 
oil pollution minimization demonstration projects, only some of which 
were carried out due to a lack of funding.
    Since the OPA passed there has been little legislative activity to 
amend the Oil Pollution Research and Development Plan. Two laws, the 
Great Lakes Fish and Wildlife Restoration Act of 1990 and the Aquatic 
Nuisance Prevention and Control Act of 1990 created a port oil 
pollution demonstration project in the Great Lakes. Finally, in 1996, 
the Coast Guard Authorization Act authorized the Prince William Sound 
Oil Spill Recovery Institute and the Center for Marine Training and 
Safety in Galveston, Texas to conduct oil spill research and 
development.

OPA Research and Development Program

    The Interagency Coordinating Committee on Oil Pollution Research 
produced the first Oil Pollution Research and Technology Plan in 1992, 
and after consulting with the National Academy of Sciences, submitted a 
second plan in 1997. The plans identified and prioritized twenty 
research and development program areas. These areas focused on spill 
prevention; spill response planning, training, and management; spill 
countermeasures and cleanup; fate and transport; and effects, 
monitoring and restoration and assigned R&D focus areas to ten member 
agencies. There has been no update of the research plan since 1997.
    Despite the Interagency Committee's detailed research plan, there 
have been modest technological advances in oil spill cleanup technology 
since the enactment of the law in 1990. The Interagency Coordinating 
Committee on Oil Pollution Research reported that, as late as 1997, 
``most of the technology and information gaps of 1990 remain,'' due to 
a failure to appropriate sufficient funds for oil pollution technology 
programs.\6\
---------------------------------------------------------------------------
    \6\ Interagency Coordinating Committee on Oil Pollution Research 
(1997) Oil Pollution Research and Technology Plan.
---------------------------------------------------------------------------
    Four agencies--the National Oceanic and Atmospheric Administration 
(NOAA), the Environmental Protection Administration (EPA), the Mineral 
Management Services (MMS), and the Coast Guard--have conducted the 
majority of oil pollution research. Funding levels have been far lower 
than the $28 million per year originally authorized for the program.

U.S. Coast Guard
    The U.S. Coast Guard is the lead federal response agency for 
coastal waters and deepwater ports, and conducts research through its 
Research and Development Center in Groton, Connecticut. Specifically, 
the Coast Guard has focused on four main areas: spill response planning 
and management, spill detection and surveillance, vessel salvage and 
on-board containment, and spilled oil cleanup and countermeasures. Over 
the past decade, the Coast Guard has spent approximately $20 million on 
oil spill research and development.

The Environmental Protection Agency (EPA)
    EPA seeks to prevent, prepare for, and respond to oil spills that 
occur in the inland waters of the United States, and EPA is the lead 
federal response agency for such spills. The Office of Emergency 
Management (OEM) provides the responder personnel, while the research 
work, which addresses mitigation, fate and effects, and spill flow 
characteristics, is conducted through the Office of Research and 
Development's (ORD) National Risk Management Research Laboratory.
    In FY 2009, the Oil Spill Response Program received $720,000, a 
modest but historically stable budget, to conduct research and 
development at EPA.\7\ The Program's objective is to provide 
environmental managers with the ``tools, models, and methods needed to 
mitigate the effects of oil and biofuel spills on ecosystems.'' EPA's 
program includes focused work into spill mitigation through 
bioremediation, chemical and physical countermeasures, and ecotoxity 
effects.\8\
---------------------------------------------------------------------------
    \7\ EPA (2009) FY 2010 Congressional Budget Justification. EPA-2-5-
E-09-001. Pg. 160.
    \8\ EPA (2009) Congressional Briefing on OPA 1990 to the Science 
and Technology Committee. May 12, 2009.

The National Oceanic and Atmospheric Administration (NOAA)
    NOAA's Office of Response and Restoration (OR&R) provides immediate 
operational and scientific support during the assessment, response, and 
cleanup phases. In the role as science advisors to the Federal On-Scene 
Coordinator, OR&R provided spill trajectory, resources at risk, and 
early spill impact information during the initial stages of the spill. 
Once the focus shifted from response to cleanup, OR&R addressed issues 
related to the effectiveness and environmental effects of cleanup 
technologies.\9\
---------------------------------------------------------------------------
    \9\ NOAA (2009) Exxon Valdez Oil Spill Website. National Ocean 
Service. Office of Response and Restoration Website. Accessed on May 
20, 2009.
---------------------------------------------------------------------------
    Although there is currently no funded oil spill response research 
and development program in NOAA, the Oil Pollution Act does grant NOAA 
the authority to carry out research and development. From 2004-2007, 
NOAA received funding for the Coastal Response Research Center in New 
Hampshire, which brings together the resources of the University of New 
Hampshire and the field expertise of OR&R to conduct and oversee basic 
and applied research, perform outreach, and encourage strategic 
partnerships in spill response, assessment and restoration. Aside from 
this funding, NOAA has received no direct appropriation for NOAA 
research and development for spill response.

The Minerals Management Service (MMS)
    MMS's Oil Spill Response Research Program (OSRR) focuses on 
improving the knowledge and technologies used for detection, 
containment and cleanup of oil spills that may occur on the outer 
continental shelf. MMS also operates OHMSETT--the National Oil Spill 
Response Test Tank Facility--in Leonardo, New Jersey. Funding for MMS's 
programs is appropriated from the Oil Spill Liability Trust Fund 
(OSLTF). While OSLFT had received funds from an oil tax from oil 
imported into the U.S., once the fund reached one billion dollars, the 
tax was suspended. Currently, funds are generated from interest on the 
fund, cost recovery from responsible parties, and penalties.

Draft Legislation

    In November 2007, a 900-foot container ship, the Cosco Busan, 
struck the San Francisco Bay Bridge, spilling over 50,000 gallons of 
oil into the Bay. This accident brought renewed attention and focus to 
current Federal Government procedures, practices, and research. Spills 
such as the Cosco Busan can be costly. The cleanup costs for this 
relatively small spill were close to $100 million. Following this event 
and other recent accidents, it is clear that the United States needs a 
more robust research and development strategy to reduce the 
environmental and economic impacts of oil spills. Currently, responders 
face a number of emerging threats arising from an increase in maritime 
transportation, potential for offshore energy exploration in remote 
locations, aging infrastructure, and new fuel stocks and blends.
    More than ten federal and numerous State and local agencies are 
called upon to assist in the federal response team in some manner. 
Given the high environmental and economic cost of oil spills such as 
the Cosco Busan and the current lack of directed research, a 
reinvigorated and streamlined research and development program would 
help to improve the effectiveness of oil spill response efforts and 
ecosystem mitigation at a fraction of the cost of a single large spill.
    For these reasons, Representative Lynn Woolsey (D-CA) plans to 
introduce legislation to reorient the current federal interagency 
research and development program created in OPA. The draft legislation 
seeks to improve the Federal Government's research and development 
efforts to prevent, detect, or mitigate oil discharges. The bill 
provides a new direction to the existing program by guiding research 
towards emerging threats and streamlining a cumbersome interagency 
structure. Through this reauthorization, the responsible federal 
agencies will be better equipped to quickly and effectively respond to 
oil discharges both inland and in coastal waters.

                 Federal Oil Spill Research Program Act

                           Section-by-Section

Title: Federal Oil Spill Research Program Act

Purpose: To amend Title VII of the Oil Pollution Act of 1990 and for 
other purposes.

Section 1: Short Title

    Federal Oil Spill Research Program Act

Section 2: Federal Oil Spill Research Committee

    Section 2 directs the President to establish an interagency 
committee to be known as the Federal Oil Spill Research Committee 
(`Committee'). The President shall designate a representative of the 
National Oceanic and Atmospheric Administration to serve as Chairperson 
of the Committee, and the members of the Committee shall include 
representatives from NOAA, the United States Coast Guard, the 
Environmental Protection Agency, and such other federal agencies as the 
President may designate.
    Section 2 requires the Committee to: 1) coordinate a federal oil 
spill research program (`Program') to coordinate oil pollution 
research, technology development, and demonstration among the federal 
agencies, in cooperation and coordination with industry, institutions 
of higher education, research institutions, State and tribal 
governments, and other relevant stakeholders; 2) complete a research 
assessment (`Assessment') on the status of oil spill prevention and 
response capabilities; and 3) develop a federal oil spill research plan 
(`Plan'). The Assessment will provide the Committee with the 
information necessary to create the Plan.

Section 3: Federal Oil Spill Research Program

    Section 3 requires the Committee to establish a Program for 
conducting oil pollution research, development, and demonstration. The 
Program shall focus on new technologies, practices, and procedures that 
provide for effective and direct response to prevent, detect, recover, 
or mitigate oil discharges.

Section 4: Federal Research Assessment

    Section 4 instructs the Committee to submit to Congress an 
Assessment of the status of oil spill prevention and response 
capabilities that identifies current oil pollution research and 
development programs, identifies regional oil pollution research needs 
and priorities, assesses the status of knowledge of oil pollution 
prevention, response, and mitigation technologies, and assesses the 
status of real-time data available to mariners, researchers, and 
responders. The Assessment shall be subject to a 90-day public comment 
period and shall incorporate public input as appropriate. The Committee 
is required submit the Assessment to Congress no later than one year 
after the enactment of Section 4.

Section 5: Federal Research Interagency Plan

    Section 5 directs the Committee to develop a Plan to establish 
federal oil spill research and development priorities. In developing 
the Plan, the Committee shall consider and utilize recommendations from 
the National Academy of Sciences, as well as State, local, and tribal 
governments. The Plan will make recommendations for improving oil spill 
recovery, mitigation, technologies, practices, procedures, and the 
quality of real-time data available to mariners, researchers, and 
responders. The Assessment shall be subject to a 90-day public comment 
period and shall incorporate public input as appropriate. The Committee 
is required to submit the Plan to Congress no later than one year after 
the submission of the Assessment.

Section 6: Extramural Grants

    Section 6 instructs the Secretary of Commerce, acting through the 
Administrator of NOAA, to award competitive grants to institutions of 
higher education and other research institutions to advance research, 
development, and demonstration of technologies for preventing, 
detecting, or mitigating oil discharges in accordance with the goals 
and priorities of the Plan. The Secretary shall incorporate a 
competitive, merit-based process for awarding grants under Section 6.

Section 7: Annual Report

    Section 7 requires the Committee to submit an annual report to 
Congress, concurrent with the annual submission of the President's 
budget, describing the activities and results of the Program during the 
previous fiscal year and outlining objectives for the next fiscal year.

Section 8: National Academy of Science Participation

    Section 8 instructs the Secretary of Commerce, acting through the 
Administrator of NOAA, to contract with the National Academy of 
Sciences to assess and evaluate the status of federal oil spill 
research and development prior to the enactment of the Federal Oil 
Spill Research Program Act and to submit: 1) an assessment of the 
program prior to enactment of the legislation; 2) a report to the 
Committee evaluating the conclusions and recommendations from the 
Assessment to be utilized in the creation of the Plan; and 3) a report 
to Congress evaluating the Committee's Plan, no later than one year 
after the Committee submits the Plan.

Section 9: Technical and Conforming Changes

    Section 9 makes technical and conforming changes to the Oil 
Pollution Act of 1990.
    Chairman Baird. We will bring our hearing to order. I want 
to thank all our participants for being here. The hearing will 
now come to order. I want to welcome everyone to today's 
hearing on investigating federal oil spill research and 
development. Our hearing today provides us with an opportunity 
to examine current federal R&D efforts to prevent, detect, or 
mitigate oil discharges.
    In addition, the Subcommittee will receive testimony on new 
legislation introduced by Representative Woolsey entitled, 
``The Federal Oil Spill Research Program Act of 2009.'' As a 
co-sponsor of the legislation I want to thank Ms. Woolsey for 
her dedication to this important issue.
    The Exxon Valdez disaster of 1989 provided the impetus for 
the passage of the Oil Pollution Act of 1990, also known as OPA 
90, which expanded the oil prevention, preparedness, and 
response capacity of the Federal Government and industry. OPA 
90 has been a success story in many ways. However, new 
challenges exist today that were not apparent when the bill was 
authorized.
    Although oil leaked from tankers has vastly decreased, oil 
spills from other vessels and from on-land sources remain high. 
In 2007, a 900-foot container ship, the Cosco Busan, struck the 
San Francisco Bay Bridge, spilling over 50,000 gallons of oil 
into the Bay. That accident has brought renewed attention and 
focus to current Federal Government procedures, practices, and 
research. Following that event and other recent accidents it is 
clear that the United States needs a more robust research and 
development strategy to reduce the environmental and economic 
impacts of oil spills.
    Currently, responders face increasing challenges arising 
from an increase in maritime transportation, potential for 
onshore energy exploration in remote locations, aging 
infrastructure, and new fuel stocks and blends. Title VII of 
OPA 90 created an interagency oil spill research and 
development program with the goal of coordinating federal 
research to encourage the development of new technologies to 
address oil spills.
    Despite the interagency committee's detailed research plan, 
there have been modest technological advances in oil spill 
cleanup technologies since the enactment of the law in 1990. 
According to the Committee on Maritime Transportation of Heavy 
Oils, most oil spills experience a 10 to 15 percent rate of 
recovery. More recent estimates have reported an increase in 
recovery rates to 40 percent in best-case scenarios.
    Given these low recovery percentages, additional research 
and development is necessary to reach acceptable levels of 
mitigation. The Federal Oil Spill Research Program Act authored 
by Ms. Woolsey seeks to re-orient the current federal 
interagency research and development program created in OPA. 
The legislation would improve the Federal Government's research 
and development efforts to prevent, detect, or mitigate oil 
discharges. The bill provides a new direction to the existing 
program by guiding research towards new challenges and making 
interagency structures for this program more efficient.
    Through this reauthorization, the responsible federal 
agencies will be better equipped to quickly and effectively 
respond to oil discharges, both inland and in coastal waters.
    We have an excellent panel of witnesses with us this 
morning who will share their views on oil spill responses, 
recovery, and mitigation, and I thank you all for being with us 
here today. I look forward to your suggestions relating the 
Federal Oil Spill Research Act.
    And we have been joined at this point by the author of the 
proposed legislation, Ms. Woolsey. Ms. Woolsey, I have been 
singing your praises in your absence and will do so again 
throughout today's hearing.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good morning and welcome to today's hearing investigating federal 
oil spill research and development.
    This morning's hearing provides us with an opportunity to examine 
current federal R&D efforts to prevent, detect, or mitigate oil 
discharges. In addition, the Subcommittee will receive testimony on new 
legislation introduced by Representative Woolsey entitled, the Federal 
Oil Spill Research Program Act of 2009. As a co-sponsor of this 
legislation, I want to thank Ms. Woolsey for her dedication to this 
important issue.
    Twenty years ago, the Exxon Valdez oil tanker ran aground and 
spilled nearly 11 million gallons of crude oil in Alaska's Prince 
William Sound. In its first sweep, the oil spill killed about 250,000 
seabirds, 4,000 sea otters, 250 bald eagles, and more than 20 orca 
whales, according to World Wildlife Federation. Two decades later, huge 
quantities of oil still coat Alaska's shores. Of the 11 million gallons 
of crude oil that drained from the stranded tanker, more than 20,000 
gallons remain in isolated coves and underneath the sand.
    The Exxon Valdez disaster provided the impetus for the passage of 
the Oil Pollution Act of 1990 (OPA 90), which expanded the oil 
prevention, preparedness, and response capabilities of the Federal 
Government and industry.
    The OPA 90 has been a success story in many ways. Since the bill 
was signed into law, the volume of oil spilled from tankers into U.S. 
waters has fallen from an average of 70,000 barrels per year to an 
average of 4,000 barrels per year--a decrease of 95 percent. A phased 
move from single to double hulls is one of the most visible of OPA 90's 
achievements.
    However, new challenges exist today that were not apparent when the 
bill was authorized. Although oil leaked from tankers has vastly 
decreased, oil spills from other vessels and from on-land sources 
remain high. In 2007, a 900-foot container ship, the Cosco Busan, 
struck the San Francisco Bay Bridge, spilling over 50,000 gallons of 
oil into the Bay. This accident has brought renewed attention and focus 
to current Federal Government procedures, practices, and research.
    Following this event and other recent accidents, it is clear that 
the United States needs a more robust research and development strategy 
to reduce the environmental and economic impacts of oil spills. 
Currently, responders face increasing challenges arising from an 
increase in maritime transportation, potential for offshore energy 
exploration in remote locations, aging infrastructure, and new fuel 
stocks and blends.
    Title VII of OPA 1990 created an ``Interagency Oil Spill Research 
and Development Program'' with the goal of coordinating federal 
research to encourage the development of new technologies to address 
oil spills. Despite the Interagency Committee's detailed research plan, 
there have been modest technological advances in oil spill cleanup 
technology since the enactment of the law in 1990. In the last Plan 
issued by the Interagency Coordinating Committee on Oil Pollution 
Research, released in 1997, the Committee reported ``most of the 
technology and information gaps of 1990 remain.''
    According to the Committee on the Marine Transportation of Heavy 
Oils, most oil spills experience a 10 to 15 percent rate of recovery. 
More recent estimates have reported an increase in recovery rates to 40 
percent in best case scenarios. Given these low recovery percentages, 
additional research and development is necessary to reach acceptable 
levels of mitigation.
    Due to the high environmental and economic cost of oil spills such 
as the Cosco Busan and the current lack of directed research, a 
reinvigorated research and development program is needed to improve the 
effectiveness of oil spill response efforts and ecosystem mitigation at 
a fraction of the cost of a single large spill.
    The Federal Oil Spill Research Program Act seeks to reorient the 
current federal interagency research and development program created in 
OPA. The legislation would improve the Federal Government's research 
and development efforts to prevent, detect, or mitigate oil discharges. 
The bill provides a new direction to the existing program by guiding 
research towards new challenges and making the interagency structure 
for this program more efficient. Through this reauthorization, the 
responsible federal agencies will be better equipped to quickly and 
effectively respond to oil discharges both inland and in coastal 
waters.
    We have an excellent panel of witnesses with us this morning who 
will share their views on oil spill response, recovery, and mitigation. 
I thank you all for being with us here today, and I look forward to 
your suggestions related to the Federal Oil Spill Research Program Act.

    Chairman Baird. At this point I would like to yield time to 
Representative Woolsey and then in one moment I will recognize 
Mr. Inglis.
    Ms. Woolsey.
    Ms. Woolsey. Well, thank you very much, Mr. Chairman and 
Mr. Ranking Member and panel for being here to talk about 
something that is very important to me and holding this hearing 
and also for allowing me to make an opening statement.
    Oil spill prevention and mitigation is important to me, not 
only because I think it is vital to protect the environment and 
our coastal economies but also because my district has been 
seriously affected by what many consider a minor spill. Well, 
ha, ha. As a result of this I have been witness to how 
difficult an oil spill cleanup effort can be, even with the 
best available technology.
    As some of you remember, on November 7, 2007, the container 
ship Cosco Busan collided with the San Francisco Bay Bridge and 
released 58,000 gallons of oil into San Francisco Bay. Because 
of the complex tidal mechanics that are present in the Bay, the 
spill spread rapidly and quickly affected a large area of the 
north coast, including the Golden Gate National Recreation 
Area, the Point Reyes National Seashore, and both the Gulf of 
the Farallones and Monterey Bay National Marine Sanctuaries. 
The pristine beaches of Marin County were soiled, waters off 
our federal parklands were sullied, and important restoration 
projects in Richardson and San Pueblo Bay were threatened.
    In addition, the spill killed thousands of birds, many 
marine mammals, and no one knows how many fish, and I can't 
help but think that this oil spill played at least some part in 
the closure of the Sacramento River Salmon Fishery that 
migrates through the San Francisco Bay on their way out to sea.
    All in all, about 200 miles of coastline were affected by 
this one minor spill. That is why I have introduced H.R. 2693, 
the Federal Oil Spill Research Program Act. This bill 
coordinates federal research and development of oil spill 
prevention, detection, recovery, and mitigation to ensure that 
all the relevant agencies are working together for common 
solutions.
    In addition, the bill provides grants to institutes of 
higher learning and research centers to improve technologies 
that can be used to prevent, combat, and clean up oil spills. 
One thing that I heard again and again from the people who were 
tasked with cleaning up our mess was that the technology they 
were using just wasn't adequate to get the job done. Actually, 
of the 58,000 gallons of oil that were spilled into San 
Francisco Bay, only a little more than 40 percent of that 
amount was recovered.
    It is clear that current technology is inadequate to 
prevent and protect us from oil spills if we can only recover 
such a small percentage with what is available to us today. I 
know that the right focus and with the right focus and effort 
we can do much, much better. I am hoping that H.R. 2693 will 
help to ensure that we will take an active role to prevent oil 
spills and when they do occur, we have the best possible 
technology to minimize negative impacts.
    So, again, Mr. Chairman, thank you for letting me spout 
off. I am really proud that you are--we are introducing this 
legislation, and we will hear from these great witnesses. Thank 
you very much.
    [The prepared statement of Ms. Woolsey follows:]
          Prepared Statement of Representative Lynn C. Woolsey
    Mr. Chairman, thank you for holding this hearing today, and for 
allowing me to make an opening statement.
    Oil spill prevention and mitigation is important to me not only 
because I think it's vital to protect the environment and coastal 
economies, but also because my District has been seriously affected by 
what many consider a minor spill. And as a result of this, I've been 
witness to how difficult an oil spill cleanup effort can be . . . even 
with the best available technology.
    As some of you remember, on November 7, 2007, the container ship 
Cosco Busan collided with the San Francisco Bay Bridge, and released 
58,000 gallons of oil into San Francisco Bay.
    Because of the complex tidal mechanics that are present in the Bay, 
the spill spread rapidly and quickly affected a large area of the north 
coast, including the Golden Gate National Recreation Area; the Point 
Reyes National Seashore; and both the Gulf of the Farallones and 
Monterey Bay National Marine Sanctuaries.
    The pristine beaches of Marin County were soiled, waters off of our 
federal parklands were sullied, and important restoration projects in 
Richardson and San Pablo Bay were threatened.
    In addition, the spill killed thousands of birds, many marine 
mammals, and no one knows how many fish . . . and I can't help but 
think that this oil spill played at least some part in the closure of 
the Sacramento River salmon fishery that migrates through the San 
Francisco Bay on their way out to sea. All in all, about 200 miles of 
coastline were affected by this spill.
    That's why I have introduced the H.R. 2693, the ``Federal Oil Spill 
Research Program Act.'' This bill coordinates federal research and 
development of oil spill prevention, detection, recovery, and 
mitigation to ensure that all the relevant agencies are working 
together for common solutions.
    In addition, the bill provides grants to institutes of higher 
learning and research centers to improve technologies used to prevent, 
combat, and clean up oil spills.
    One thing that I heard again and again from the people who were 
tasked with cleaning up our mess was that the technology they were 
using just wasn't adequate to get the job done. Actually, of the 58,000 
gallons of oil that were spilled into San Francisco Bay, only about a 
third of that amount was recovered.
    It's clear that current technology is inadequate to prevent and 
protect us from oils spills if we can only recover such a small 
percentage with what's available. And, I know with the right focus and 
effort, we can do much, much better.
    H.R. 2693 will help to ensure that the Federal Government is taking 
an active role to prevent oil spills, and that when they do occur, we 
have the best possible technology to minimize negative impacts to 
ourselves and the environment.
    Mr. Chairman, again, I thank you for holding this hearing, and I 
look forward to the testimony from our distinguished witnesses.

    Chairman Baird. I am happy to do so, Ms. Woolsey. Your 
passion for the issue comes through both in your words today 
and in many of your actions as a Member of Congress over the 
many years but also in the context of this legislation.
    I am now pleased to recognize our distinguished Ranking 
Member, Mr. Inglis, for his opening remarks.
    Mr. Inglis. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    In many ways this hearing is an opportunity to applaud the 
progress and success of NOAA, U.S. Coast Guard, research labs, 
and environmental organizations at the State, federal, and 
local level who have all contributed to a steady decline in oil 
spill incidents in our nation.
    This achievement is especially noteworthy considering that 
our annual transport of oil and other hazardous materials is 
not decreasing but growing rather at a rapid pace. So thank you 
to the witnesses here for your hard work and for the work of 
those you represent in protecting our waters, wildlife, and 
ecological systems in the incidence of spills.
    But oil spills are one of those areas where we are as a 
country--where we as a country will stop being worried when we 
are perfect, and since we are probably never going to be 
perfect or able to prevent any imaginable accident, we are here 
to discuss how we can redress our strategies and resources for 
mitigating the impacts of oil spills.
    The 50,000 gallon spill in November of 2007 in the San 
Francisco Bay area was a reminder that even small spills can be 
very costly. If they are ways that we can be promoting research 
and development to improve response and cleanup while driving 
down the cost of those efforts, we have a responsibility to 
encourage that research.
    I appreciate Congresswoman Woolsey's proactive efforts to 
bring legislation before this subcommittee, and I look forward 
to hearing our witnesses' thoughts on this bill. I am 
especially interested to hear what deficiencies exist in the 
current interagency coordination efforts and if new legislation 
is necessary to correct these shortcomings.
    Thank you, again, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good afternoon, and thank you for holding this hearing, Mr. 
Chairman.
    In many ways, this hearing is an opportunity to applaud the 
progress and success of NOAA, the U.S. Coast Guard, research labs, and 
environmental organizations at the State, federal, and local level, who 
have all contributed to a steady decline in oil spill incidents in our 
nation's past. This achievement is especially noteworthy considering 
that our annual transport of oil and other hazardous materials is not 
decreasing, but growing at a rapid pace. So thank you to the witnesses 
here for your hard work, and the work of those you represent, in 
protecting our waters, wildlife, and ecological systems in the 
incidents of spills.
    But oil spills are one of those areas where we as a country will 
stop being worried when we're perfect--and since we'll probably never 
be perfect, or able to prevent any imaginable accident, we're here to 
discuss how we can readdress our strategies and resources for 
mitigating the impacts of oil spills. The 50,000 gallon spill in 
November 2007 in the San Francisco Bay area was a reminder that even 
small spills can be very costly. If there are ways that we can be 
promoting research and development to improve response and cleanup, 
.while driving down the costs of those efforts, we have a 
responsibility to encourage such changes.
    I appreciate Congresswoman Woolsey's proactive efforts to bring 
draft legislation before this subcommittee, and I look forward to 
hearing our witnesses' thoughts on this bill. I'm especially interested 
to hear what deficiencies exist in the current interagency coordination 
effort, and if new legislation is necessary to correct these 
shortcomings.
    Thank you again, Mr. Chairman, and I yield back.

    Chairman Baird. I thank the gentleman. If there are other 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to examine current federal research and development efforts to 
address oil discharges and to receive testimony on the Federal Oil 
Spill Research Program Act of 2009.
    During the 101st Congress, I voted in support of the Oil Pollution 
Act of 1990, which created an interagency research program on oil 
spills. This legislation was considered in response to the devastating 
Exxon Valdez oil spill, which covered 11,000 miles of ocean and 350 
miles of beaches in a slick of oil. Nearly 20 years later, oil spills 
continue to occur on our coasts and waterways, resulting in expensive 
recovery and clean-up efforts.
    The U.S. Coast Guard, the Environmental Protection Agency (EPA), 
the National Oceanic and Atmospheric Administration (NOAA), and the 
Mineral Management Service (MMS) completed substantial research efforts 
in the last 20 years to address concerns about oil spills. While these 
efforts have made advancements in responses to and prevention of 
massive oil spills, more research is necessary to prevent spills and 
improve clean-up and recovery programs.
    The guidelines set forth in the proposed draft legislation aim to 
be cost-effective and efficient by streamlining government efforts for 
research and development. I look forward to hearing from our witnesses 
to learn more about our current research and to determine what changes 
may be necessary to the federal oil spill research and development 
program.
    Thank you again, Mr. Chairman.

    Chairman Baird. I want to thank Mr. Lujan for being here as 
well. Though not a coastal state per se, we very much 
appreciate your input and participation. Thank you very, very 
much.
    At this point it is my pleasure to introduce our witnesses 
at this time. Mr. Doug Helton is the Incident Operations 
Coordinator at the National Oceanic and Atmospheric 
Administration, Office of Response and Restoration. Dr. Albert 
D. Venosa is the Director of the Land Remediation and Pollution 
Control Division of the National Risk Management Research 
Laboratory, a part of the Office of Research and Development at 
EPA. Rear Admiral James Watson is the Director of Prevention 
Policy for Marine Safety, Security, and Stewardship for the 
U.S. Coast Guard. As I serve on the Coast Guard Subcommittee as 
well, it is a pleasure to see you in this committee, Admiral 
Watson. We will try to invite you more frequently on other 
topics as well.
    And at this point I am happy, again, to yield to Ms. 
Woolsey to introduce our fourth witness, her fellow 
Californian, Mr. Edinger.
    Ms. Woolsey. Thank you, Mr. Chairman.
    It is my pleasure to introduce Stephen Edinger as a witness 
before our committee today. Mr. Edinger is the Administrator 
for the California Department of Fish and Game, Office of Spill 
Prevention and Response. That probably took up more time than 
all of yours together, my just saying that. He is a graduate of 
the University of California-Davis and was appointed as 
Administrator by Governor Arnold Schwarzenegger in November, 
2008. He spent his professional career protecting California's 
wildlife and natural environments, serving over 28 years in 
environmental law enforcement.
    Mr. Edinger has investigated or served as the Incident 
Commander on hundreds of pollution events across California, 
most relevant to this hearing he served as California's 
incident Commander during the Cosco Busan oil spill response in 
November, 2007.
    We look forward to hearing from you, Stephen.
    Chairman Baird. As our witnesses know, we spoke briefly 
before the hearing began, you will have five minutes for your 
spoken testimony. I always have to apologize for that. You 
spend your entire careers on this, fly a long distance, and we 
give you five minutes. Your written testimony will be included 
in the record for the hearing. When you have completed your 
spoken testimony, we will each begin with questions.
    We will start with Mr. Helton.

    STATEMENT OF MR. DOUGLAS R. HELTON, INCIDENT OPERATIONS 
   COORDINATOR, OFFICE OF RESPONSE AND RESTORATION, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Mr. Helton. Thank you, Mr. Chairman and Members of the 
Committee for the opportunity to talk about NOAA's, National 
Oceanic and Atmospheric Administration's, role in oil spill 
pollution response, research and development. My name is Doug 
Helton. I am the Incident Operations Coordinator for NOAA's 
Office of Response and Restoration.
    During spills I help to manage NOAA's emergency response 
efforts, including our roles as a scientific advisor to the 
U.S. Coast Guard or other federal on-scene coordinators 
responsible for the containment and the response and cleanup of 
the spill.
    Our marine transportation system is an integral part of the 
U.S. economy, but that transportation bring risks. Tank vessels 
loaded with large quantities of oil, up to 50 million gallons, 
transit our waters every day, and tankers and barges are not 
the only risk. There is also large cruise ships, freighters, 
container ships, work boats, coastal pipelines, storage 
facilities, and offshore oil exploration that also pose risks.
    Oil spills can cause widespread environmental, economic, 
and social impacts. The best course of action is to prevent 
these spills. However, despite our best efforts, there are 
still thousands of spills every year. Most are small, but the 
DM-932 barge spill in the Mississippi River last year is a 
reminder that large spills still occur, and the Cosco Busan 
incident in 2007, is a reminder that even small spills can 
cause significant impacts.
    We need to be prepared to reduce these impacts. NOAA 
provides products and services critical for making science-
based response decisions that prevent further harm, restore 
natural resources, and promote effective planning for future 
incidents. Once oil is spilled, our goal is to advise the Coast 
Guard on the potential fate and impacts of the spill and to 
coordinate any scientific issues that arise during the 
response. Last year my office was called 169 times for such 
support.
    In addition to our response role, NOAA is also a natural 
resource trustee for marine resources under the Oil Pollution 
Act, and we are responsible for ensuring that there is 
restoration that occurs after these spills.
    Strong science is critical to effective decision-making 
during spill response and restoration, and a robust R&D program 
can improve how we respond. Congress recognized this need by 
creating the Interagency Coordinating Committee on Oil 
Pollution as part of the Oil Pollution Act. While some funding 
has been provided over the years, the comprehensive research 
and development that was envisioned by the Oil Pollution Act 
has not been achieved, and research has actually declined in 
recent years.
    While research has produced advancements and especially in 
technologies to prevent spills, the response community 
essentially has the same tools we had 20 years ago during the 
Exxon Valdez spill.
    The Oil Pollution Act gives NOAA authority to do research 
and development, and NOAA's most recent efforts in this regards 
were through a partnership with the University of New 
Hampshire's Coastal Response Research Center. That research 
focused on tradeoffs of response technologies including 
dispersants in burning, deep water well blowouts, arctic and 
cold water spills, submerged oil, restoration science, modeling 
and information management and the social dimensions of spills. 
In a few short years the CRRC has become a focal point for 
coordination and planning for oil spill research and 
development.
    And while these efforts have been beneficial, there is much 
additional research that is needed. We need to improve the 
capabilities for response and restoration in cold water and 
arctic spills. Increasing vessel traffic and exploration will 
increase the potential for oil spills in the Arctic, and many 
of the standard approaches we have now do not work in arctic 
waters.
    There is also a need to develop restoration and assessment 
technologies for these sensitive resources.
    We need improved oil spill modeling. We currently lack the 
modeling capability to determine how oil will behave when it 
sinks--how it behaves in ice environments or when it sinks 
below the surface. Understanding the behavior of oil in the 
water column is important for a number of reasons, including 
protecting water intakes and evaluating the effects on 
fisheries.
    For example, in 2004, the Athos I oil spill in Delaware 
River had a neutrally-buoyant oil. That oil was entrained in 
the Salem Nuclear Power Plants water intakes and resulted in 
the precautionary closure of that power plant. Better 
understanding of how that submerged oil would behave would have 
been important in helping to reduce that closure which was 
millions of dollars a day in losses.
    We need to better use remote sensing technologies, 
including unmanned aerial vehicles, real-time ocean observation 
systems. NOAA's trajectory modeling can help direct oil spill 
responders where the oil is heaviest but using remote sensing 
would help us direct that cleanup technology more effectively.
    We also need a better understanding of the effects of 
residual oil. We know that from experience residual oil can 
persist for a long time in the environment. We need to know the 
tradeoffs associated with leaving that oil in place.
    And finally, we need to address the human and social 
dimensions of spill response. The success of a response is 
partially dependent upon the--how well the local community is 
engaged.
    So thank you for the opportunity to discuss these issues, 
and I will stand by to answer any questions you may have.
    [The prepared statement of Mr. Helton follows:]
                Prepared Statement of Douglas R. Helton
    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to testify about the National Oceanic and Atmospheric 
Administration's (NOAA's) role in oil spill research and development. I 
am Doug Helton, Incident Operations Coordinator for the Emergency 
Response Division in NOAA's Office of Response and Restoration.

OVERVIEW

    Our marine transportation system is an integral part of the U.S. 
economy. According to a recent report from the Bureau of Transportation 
Statistics, our marine transportation system conveys as much as 78 
percent of U.S. international merchandise trade by weight and 44 
percent by value through our nation's ports each year, far more than 
any other mode of transportation . Every day vessels containing large 
quantities of oil--some up to 50 million gallons--travel through our 
waterways to their destinations. These vessels include not only oil 
tankers but also container ships, fishing vessels, ferries, and other 
public and private vessels that carry millions of gallons of fuel oil 
and some of which may carry hazardous materials as cargo.
    Over the past fifty years, ships have doubled in length, width, and 
draft, and seagoing commerce has tripled. The Department of 
Transportation projects that by 2020 the volume of maritime trade will 
more than double from 1998 levels, particularly in international 
container traffic.\1\ Wherever these vessels travel on our waters, 
there is an associated risk that oil may spill and/or there may be a 
release of hazardous cargo (if present) into the water or the 
atmosphere. While vessels take every precaution to avoid these 
situations, they do happen and when spills occur, they can cause 
widespread environmental, economic, and social impacts. For example, if 
an oil spill were to disrupt the movement of commerce at the Port of 
Los Angeles, it could have economic impacts across the entire country 
due to the volume of commercial items that come through that port every 
day. Effective spill response keeps commerce moving and reduces clean-
up costs and environmental impacts.
---------------------------------------------------------------------------
    \1\ USDOT Freight Analysis Framework National Summary: 1998, 2010, 
2020.
---------------------------------------------------------------------------
    Although our nation's energy policy likely will incorporate more 
alternative energy sources in the future, the U.S. will continue to 
rely on oil for years to come. Oil spills are an unfortunate but 
unavoidable consequence of using oil to fuel our transportation system 
and meet our domestic energy needs.
    The Nation is also facing new challenges from a changing climate. 
The summer melting of Arctic sea ice has opened up shipping channels 
and energy exploration options that were inaccessible just a few years 
ago. The resulting increase in vessel traffic and exploration 
activities will increase the potential for oil spills to occur in the 
Arctic. We have learned that many of today's standard approaches to oil 
spill clean-up and restoration do not apply in the cold Arctic waters, 
and there is a need for improved understanding and better methods to 
clean up and restore this fragile environment. In other areas of the 
country, aging oil infrastructure in coastal areas will be susceptible 
to sea level rise and more frequent and violent storms in U.S. coastal 
areas.
    The best action to take is to prevent oil spills from occurring. 
However, despite our best prevention efforts and advances that have 
been made over the past twenty years, there are still thousands of 
spills every year. Most are small spills less than 100 gallons. 
However, the DM932 barge spill in the Mississippi River in 2008 is a 
stark reminder that large spills still occur, and the 2007 Cosco Busan 
incident in San Francisco Bay reminds us that large volumes of oil do 
not have to be spilled for an incident to cause significant regional 
impacts. Once oil is released into the marine environment, our goal is 
to quickly and effectively mitigate and restore any harmful effects. An 
effective response, based on solid science and smart decision-making, 
reduces environmental and socioeconomic impacts as well as clean-up 
costs.

NOAA'S ROLE IN RESPONSE

    While several other agencies, including the Department of Homeland 
Security, the Department of the Interior, and the Environmental 
Protection Agency, have important roles in oil spill clean-up and oil 
spill research, my testimony will focus specifically on NOAA's roles. 
When oil is spilled into the marine environment, NOAA has three 
critical roles mandated by the Oil Pollution Act and the National 
Contingency Plan:

        1.  Serve as a single conduit for scientific information to the 
        Federal On-Scene Coordinator to provide trajectory predictions 
        for spilled oil, overflight observations of oil on water, 
        identification of environmental areas that are highly valued or 
        sensitive, and shoreline surveys of oil to determine clean-up 
        priorities.

        2.  Conduct a natural resource damage assessment with the goal 
        of restoring any ocean resources harmed by the spill. This 
        includes fulfilling the role of Natural Resource Trustee for 
        impacted marine resources.

        3.  Represent Department of Commerce interests in spill 
        response decision-making activities through the Regional 
        Response Team.

    NOAA serves the Nation by providing expertise and a suite of 
products and services critical for making science-based response 
decisions that prevent further harm, restore natural resources, and 
promote effective planning for future incidents. Federal, State, and 
local agencies across the country called upon NOAA's Office of Response 
and Restoration for scientific support 169 times in 2008. Most of these 
calls were related to oil spills.
    NOAA's Scientific Support Coordinators are located around the 
country in U.S. Coast Guard (USCG) Districts, ready to respond around 
the clock to any emergencies involving the release of oil or hazardous 
materials into the oceans or atmosphere. During an oil spill, the 
Scientific Support Coordinator delivers scientific support to the USCG 
in its role as Federal On-Scene Coordinator. Using experience, 
expertise, and state-of-the-art technology, NOAA forecasts the movement 
and behavior of spilled oil, evaluates the risk to resources, conducts 
overflight observations and shoreline surveys, and recommends 
protection priorities and appropriate clean-up actions. NOAA also 
provides spot weather forecasts, emergency coastal survey and charting 
capabilities, aerial and satellite imagery, and real-time coastal ocean 
observation data to assist response efforts. Federal, State, and local 
entities look to NOAA for assistance, experience, local perspective, 
and scientific knowledge.
    Effective spill response also depends on effective planning and 
preparation, which is how NOAA responders spend the bulk of their time 
between spills. NOAA promotes preparedness by representing the 
Department of Commerce on the National Response Team and working 
closely with regional response teams and local area committees to 
develop policies on dispersant use, best clean-up practices, 
communications, and ensuring access to science-related resources, data 
and expertise. In addition, NOAA enhances the state of readiness by 
conducting training for the response community and developing better 
response tools including trajectory models, fate models, and 
integrating improved weather and ocean observing systems data into 
spill trajectory forecasts.

NOAA'S ROLE IN DAMAGE ASSESSMENT AND RESTORATION

    Oil spills affect our natural resources in a variety of ways. They 
can directly impact our natural resources, such as the oiling of marine 
mammals. They can also diminish the ecological services provided by 
these natural resources, such as when oil degrades a coastal marsh that 
provides habitat for fish and wildlife. Oil spills may also diminish 
how we use these resources, by affecting fishing, boating, beach going, 
and wildlife viewing opportunities.
    As the lead federal trustee for marine resources, NOAA is mandated 
by the Oil Pollution Act (OPA) to achieve full compensation for the 
public for injuries to natural resources resulting from an oil spill. 
OPA encourages compensation in the form of restoration and this is 
accomplished through the Natural Resource Damage Assessment process--by 
assessing injury and then developing a restoration plan that 
appropriately compensates the public for the injured resources. NOAA 
scientists and economists provide the technical information for natural 
resource damage assessments and work with other trustees and 
responsible parties to restore resources injured by oil spills. To 
accomplish this effort NOAA experts collect data, conduct studies, and 
perform analyses needed to determine whether and to what degree coastal 
and marine resources have sustained injury from oil spills. They 
determine how best to restore injured resources and develop the most 
appropriate restoration projects to compensate the public for 
associated lost services. Over the past 20 years, NOAA and other 
natural resource trustees have recovered over $440 million from 
responsible parties for restoration of wetlands, coral reefs, oyster 
reefs, and other important habitats.
    The successful recovery of injured natural resources depends upon 
integrated spill response and restoration approaches. The initial goals 
of a response include containment and recovery of floating oil because 
recovery rates for floating oil can be quite high under certain 
conditions. As the oil reaches the shoreline, clean-up efforts become 
more intrusive and oil recovery rates decline. At this point it becomes 
important to recognize that further spill response can cause additional 
harm to natural resources and actually slow recovery rates. Such 
decision points need to be understood so that cost effective and 
successful restoration can take place. Further research on clean-up and 
restoration techniques and the recovery of environmental and human 
services after spills can improve such decision-making.

NOAA'S ROLE IN OIL SPILL RESEARCH

    Strong science is critical to effective decision-making to minimize 
the economic impacts and mitigate the effects of oil spills on coastal 
and marine resources and associated communities.
    Continued use of science, through robust research and development 
program, can improve the effectiveness of spill response efforts and 
habitat restoration.
    In 1990, the OPA recognized the need for research by creating the 
Interagency Coordinating Committee on Oil Pollution Research to 
establish a coordinated effort among industry, universities, and 
agencies to address oil pollution research and development. While some 
funding has been provided through various State and federal agencies 
and industry, the comprehensive research and development envisioned by 
OPA has not been achieved. Oil spill research in the private and public 
sectors has declined over the years in part because larger spills have 
become less frequent. While research has resulted in advancement in 
some technologies, our nation's capabilities can be strengthened.
    OPA does grant NOAA the authority to carry out research and 
development. NOAA's most recent effort in oil spill research was 
through a partnership with the Coastal Response Research Center (CRRC) 
at the University of New Hampshire. Research at the CRRC focused on 
improving decision-making capabilities for dispersant use on oil 
spills, improving predictive and response capabilities for deepwater 
well blowouts, and improving response in cold-water environments 
through national and international collaborations. This research also 
included collaboration with government, industry and international 
partners to identify plausible disaster scenarios facing the Arctic, 
outlined how NOAA and its partners would respond, and determined 
response and research needs. We have worked with our partners to 
address other pressing issues including submerged oil, human dimensions 
of spills, assessment and restoration of ecosystem services, 
environmental tradeoffs, integrated modeling, and methods associated 
with in situ burning approached in coastal marshes to minimize further 
injury to resources.

PRIORITY RESEARCH AREAS FOR THE NATION

    NOAA has seen the value of a strong and successful partnership with 
the academic community to focus on priority program-driven oil spill 
research areas. Future research activities that would benefit NOAA oil 
spill response and restoration include:

        <bullet>  Improved oil spill modeling to better predict where 
        the oil will go in the environment. We currently lack the 
        modeling capability to determine how oil will behave in icy 
        environments or when it sinks below the surface. Improving our 
        fate and trajectory models even a small amount may result in 
        improved response efficiency and considerable reduction in 
        spill costs. The FY 2010 President's Request includes resources 
        to address modeling needs, with a particular focus on three-
        dimensional models.

        <bullet>  Better response methods and improved capabilities for 
        response in cold water spills, and baseline understanding of 
        Arctic resources for conducting injury assessments and 
        developing restoration strategies. This is important as Arctic 
        development leases are issued and marine transportation 
        increases.

        <bullet>  Better understanding of climate change on existing 
        ecosystems and how this will directly affect long-term 
        restoration options.

        <bullet>  Better use of remote-sensing technologies, Unmanned 
        Aerial Vehicles, and an improved ability to access and use 
        real-time observation systems to optimize clean-up operations. 
        For example, when oil spreads across the water it does not do 
        so in a uniform manner. Oil slicks can be quite patchy and vary 
        in thickness. The effectiveness of response options the booms, 
        skimmers, and dispersants--depends on whether they are applied 
        in the areas of the heaviest oil. NOAA's trajectory modeling 
        and visual observations though overflights can help direct the 
        application of spill technologies, but remote sensing 
        technology could be used to more effectively detect oil, 
        determine areas of heaviest amounts of oil, and then use this 
        information to direct oil skimming operations and increase the 
        recovery of spilled oil. Remote sensing technology could have 
        also assisted in the Cosco Busan oil spill. Traditional methods 
        of visual observation can be difficult at night or in low 
        visibility conditions, as was the case in the Cosco Busan 
        response.

        <bullet>  Improved use of real time data on currents, tides and 
        winds in driving oil predictions models. As the Integrated 
        Ocean Observing System generates more data from technological 
        advances like high frequency radar, oil location predictions 
        can be improved by pulling these observations into trajectory 
        models in real time. To accomplish this will require research 
        to work out effective protocols and procedures.

        <bullet>  Improved understanding of the long-term effects of 
        oil on sensitive and economically important species.

        <bullet>  Incorporation of impacted communities into the 
        preparedness and response processes to address the human 
        dimensions of spills, including social issues, community 
        effects, risk communication methods, and valuation of natural 
        resources.

EXAMPLES OF THE IMPORTANCE OF RESPONSE, RESTORATION, AND RESEARCH

    I would like to illustrate some examples of two significant oil 
spills (Athos I and M/V Selendang Ayu), NOAA's role in these responses, 
and the issues and challenges encountered during the response to these 
oil spills.

M/V Selendang Ayu
    On December 7-8, 2004, the cargo vessel M/V Selendang Ayu lost 
power, ran aground and broke in half on the shore of Unalaska Island, 
Alaska, losing her 60,000 ton cargo of soybeans and spilling 
approximately 335,000 gallons of fuel oil. During the response, NOAA 
participated in aerial observations and mapping of floating and beached 
oil, provided trajectory analysis, conducted shoreline assessments to 
determine the magnitude and extent of the contamination, as well as 
provided on-scene weather information, including the establishment of 
an emergency remote weather station and the provision of a dedicated 
on-scene meteorologist. Since the initial response NOAA has continued 
to work with the other natural resource trustees and the responsible 
party to conduct a natural resource damage assessment, and evaluate 
restoration alternatives.
    The remote location of the spill along with the difficult 
conditions (e.g., weather, cold water, etc.) posed many challenges to 
the response. These challenges are similar to ones we may face in the 
future in responding to spills in the Arctic. The issues encountered in 
the Selendang spill response demonstrate the importance and need for 
sustained oil spill research. The Port of Dutch Harbor on Unalaska 
Island is the largest fishing port in the United States and has the 
largest Alaskan native subsistence community in the Aleutians. NOAA, 
U.S. Fish and Wildlife Service, and the State of Alaska worked with the 
local community to address subsistence and seafood safety concerns. Any 
real or perceived contamination of fisheries products with oil has the 
potential to disrupt both the local community and worldwide markets. 
Better knowledge and understanding of the short-term and long-term 
potential impacts of both floating oil and submerged oil on fisheries 
would have been beneficial in the response and the injury assessment 
decision-making.
    Due to the severe winter weather conditions, the response was 
halted during the winter. The USCG continued to conduct periodic 
overflights to monitor the wreck. The vessel was in poor condition and 
was still carrying a large quantity of oil, and had the vessel lost 
that oil it may have taken 24 hours or more before that was detected 
through overflights. Improved remote sensing technologies could have 
helped monitor the wreck and detect any spilled oil.
    The Scientific Support Coordinator provided input on environmental 
issues to the Unified Command, including technical matters related to 
potential dispersant use. While dispersants were readily available, the 
Unified Command decided not to use dispersants because of uncertainty 
about the effectiveness of the available dispersants on the type of oil 
spilled, and the potential environmental impacts. Dispersants are 
rarely used in spill response, mainly due to our lack of understanding 
of the environmental impacts of dispersants. While there have been 
advancements in the application of dispersants and their efficacy of 
dispersion once applied, there is still a gap in research to determine 
the long-term fate and effects of dispersants on marine life.
    Another issue that arose was the fate of residual oil. This is a 
common issue with large oil spills, and has certainly been the case 
with the Exxon Valdez oil spill. Twenty years after the Exxon Valdez 
spill there is still residual oil remaining on the Alaskan shoreline. 
When oil is spilled into the water, a goal is to minimize the 
environmental impacts. One method to do this is through rigorous clean-
up techniques to remove oil from the shoreline. However, some of these 
techniques can actually do more environmental harm than leaving the oil 
in place. We need to better understand the fate of lingering oil--where 
will it persist, in what types of environments, what are the impacts to 
the environment from this remaining oil, as well as the effects of low-
level chronic exposure on birds and mammals. This type of information 
is critical as decisions are made in the clean-up operations and to 
determine the potential trade-offs in using one clean-up technique 
versus another. This information is also critical to how we assess the 
injury to natural resources from the spill and restoration options. 
Further research in this area to improve decision-making can reduce the 
overall environmental impacts and clean-up costs.

M/T Athos I
    On November 26, 2004, the M/T Athos I, a 750-foot tanker, hit a 
submerged object in the Delaware River near Philadelphia, PA, spilling 
approximately 265,000 gallons of heavy oil. The oil spread down river, 
ultimately oiling 57 miles of Pennsylvania, New Jersey, and Delaware 
shorelines. In addition to surface and shoreline oiling, a portion of 
the oil migrated below the water surface, complicating response and 
assessment efforts. During the response, NOAA provided its traditional 
support: oil trajectory analysis, weather forecasts, identification of 
sensitive resources at risk, coordination of shoreline impact 
assessment, recommendations on environmentally appropriate clean-up 
techniques, and seafood safety consultation.
    The spill closed the Delaware River to commercial vessel traffic 
for over a week. The submerged oil resulted in contamination of water 
intakes and the closure of the Salem Nuclear Power Plant. The detection 
of submerged oil was a critical economic issue in this case, essential 
to the reopening of the port and the reactivation of the power plant.
    The Athos I incident is a reminder that there is still a need to 
sustain an integrated spill response and restoration research program. 
NOAA's response to the Athos I spill highlighted the need for improved 
understanding of the transport and fate of submerged oil, and the need 
to develop more efficient technologies for submerged oil detection, 
tracking, and modeling. The Athos I response also highlighted the need 
for additional research on ways to collect submerged oil and/or protect 
locations from it. Without reliable technologies for prediction and 
detection, the Federal On-Scene Coordinator and his science staff are 
placed in the position of ``proving a negative'' to the public in order 
to ensure no continued threat. Such ``proof'' adds time and expense to 
the response and can substantially raise the overall costs of clean-up. 
NOAA's research efforts continue to address these concerns. Better 
modeling and understanding of submerged oil behavior could have 
prevented the plant closure.

CONCLUSION

    Thank you for the opportunity to discuss with you NOAA's important 
role in oil spill response and resource restoration. NOAA's expertise 
is critical to prevent further harm, restore natural resources, and aid 
planning and response decision-making associated with oil spills. Sound 
science is the foundation for effective spill response and restoration 
decision-making. It is critical that we continue to invest in high 
priority scientific research to develop the methods and techniques 
necessary to improve the effectiveness of spill response and 
restoration. I am happy to answer any questions that you may have.

                    Biography for Douglas R. Helton
    I am the Incident Operations Coordinator for NOAA's Emergency 
Response Division. I help manage NOAA's scientific support team during 
oil and chemical spill responses and ensure that NOAA products and 
services are provided quickly and are useful to the U.S. Coast Guard 
and other on-scene responders. I respond on-scene to incidents and I 
have worked on spill events and emergency response efforts in almost 
all coastal states, ranging from Maine to Alaska to Guam. Between 
incidents, I manage various preparedness projects including directing 
the Division's prime support contract. I also work with the NOAA coral 
and NOAA Marine Debris Programs on the problem of grounded and derelict 
vessels in coastal environments. I spent several month following 
Hurricane Katrina working on a U.S. Coast Guard vessel salvage and 
wreck removal team.
    I am currently in NOAA's leadership development program. Over the 
past 18 months I have had rotational assignments as the Acting Director 
of NOAA's Marine Debris Program and with the Port of Seattle's ``Green 
Port'' team. I also completed a 6 month detail with the Senate Commerce 
Committee. In that capacity I worked on several bills including Ballast 
Water Management, Coral Reef Conservation, Oil Pollution, Climate 
Change, Coast Guard reauthorization, and other ocean-related 
legislation.
    Prior to my current position, I headed NOAA's Damage Assessment 
Center (DAC) which allows NOAA to place scientists on-scene quickly 
after an oil or chemical spill to collect perishable biological and 
economic data and to initiate damage assessment studies to support 
legal claims for restoration. I received a BA from Reed College in 
Portland, OR in 1985 and an MS from the University of Washington School 
of Fisheries in 1991. I started my NOAA career as a John Knauss Sea 
Grant Fellow in 1991-1992.

    Chairman Baird. Thank you very much, Mr. Helton.
    Dr. Venosa.

 STATEMENT OF DR. ALBERT D. VENOSA, DIRECTOR, LAND REMEDIATION 
   AND POLLUTION CONTROL DIVISION, NATIONAL RISK MANAGEMENT 
RESEARCH LABORATORY, OFFICE OF RESEARCH AND DEVELOPMENT (ORD), 
           U.S. ENVIRONMENTAL PROTECTION AGENCY (EPA)

    Dr. Venosa. Thank you, Mr. Chairman. Good afternoon, 
everyone. I am Dr. Albert Venosa, Director of the Office of 
Research and Development's Land Remediation and Pollution 
Control Division and National Risk Management Research Lab in 
Cincinnati. It is a pleasure to be here today to discuss EPA's 
Oil Spill Research Program, its past accomplishments, and its 
future research plans.
    I have been with the Agency for over 40 years and for the 
last 20 I have led EPA's Oil Spill Research and Development 
Program. Its objective is to provide environmental managers 
with tools, models, and methods needed to mitigate the effects 
of oil spills in all ecosystems with emphasis on the inland 
environment. The research includes development of practical 
solutions to mitigate spill impacts on fresh water and marine 
environments, development and publication of remedial guidance 
for cleanup and restoration of oil-impacted environments, and 
determination of the fate and effects of oil contamination in 
the environment through effective modeling of oil transport in 
a variety of settings, especially river networks.
    So why does oil spill research need to be continued? The 
major source of inland oil spills in the U.S. is from ruptured 
pipelines and above-ground storage tanks, ASTs. Although larger 
oil spills from oceangoing tanker accidents have been on the 
decline over the last several decades, I believe that the 
number of inland oil spills may actually increase due to the 
greater emphasis on domestic oil production and higher volume 
generation of alternative fuels such as biofuels, which will be 
stored in ASTs.
    So the spill threat continues even without consideration of 
domestic alternative fuel development. Little is known about 
the effect of spills of biodiesel, emerging biofuels, or 
byproducts from the manufacturer, from their manufacturer on 
watersheds. So consequently research is needed to continue to 
find effective ways to respond not only to traditional 
petroleum spills, but also to spills of non-traditional 
alternative fuels and fuel blends.
    EPA's past research has resulted in new protocols for 
testing the effectiveness of commercial oil spill treating 
agents, guidance documents for implementing bio-remediation in 
different environments, a clearer understanding of the impact 
and persistence of non-petroleum oil spills in the environment, 
and development of new spill treatment approaches.
    Ten years ago we began conducting research on non-petroleum 
oils such as vegetable oils and animal fats. This anticipatory 
research investment will be invaluable as the national emphasis 
on fuels development gains traction.
    Why? Because vegetable oils and animal fats are the primary 
feedstocks for biodiesel production. Contrary to some claims, 
our research has shown that edible oils are not as 
biodegradable as sugar in the environment because of the 
complexity of chemical interactions along saturated and 
unsaturated fatty acids.
    The future research that we will do will involve the study 
of multiple fuel types and blends resulting from passage of the 
Energy Independence and Security Act of 2007. Last year in 
anticipation of this we initiated the study of the different 
types of biodiesel and biodiesel, petro-diesel blends. An 
important byproduct in the production of biodiesel is glycerin, 
and we need to understand how to deal with glycerin spills in 
flowing streams, because they have already resulted in large 
fish kills in several of our regions.
    As for arctic spills, next year EPA plans to partner with 
the Canadian government to conduct both pilot and field scale 
research, dispersant research in icy waters. Protection of this 
environment will become more critical as global climate change 
affects the integrity of the glacial ice fields in the arctic.
    So in conclusion then, EPA's Oil Spill Research Program is 
an applied practical program based on high-quality, sound 
science. It promises to provide answers to real important, real 
and important emergency spill response and environmental 
protection challenges, especially in the area of emerging 
alternative fuel sources. Our research informs EPA regulatory 
decision-making and policy development for oil spill 
prevention, preparedness, and response programs.
    In the 20 years I have led this program we have published 
over 85 peer review journal articles, three guidance documents, 
and 79 conference proceedings. So it has been a pretty 
productive and successful program both nationally and 
internationally.
    Thank you for the opportunity to address the Committee. I 
will be happy to answer your questions.
    [The prepared statement of Dr. Venosa follows:]
                 Prepared Statement of Albert D. Venosa
    Good afternoon. I am Dr. Albert D. Venosa, Director of ORD's Land 
Remediation and Pollution Control Division in EPA's National Risk 
Management Research Laboratory, Cincinnati, Ohio. It is a pleasure to 
be here today to discuss EPA's oil spill research program, its past 
accomplishments, and future research plans.
    For the past 20 years, I have led EPA's oil spill research and 
development program to conduct basic and applied research in both the 
laboratory and the field in the area of spill response technology 
development. I was an EPA team leader in the Exxon Valdez 
bioremediation project in 1989 and 1990. I also conceived and led an 
important controlled oil spill project on the shoreline of Delaware Bay 
in 1994[1], which demonstrated statistically that bioremediation with 
simple inorganic nutrients enhances the biodegradation rate of crude 
oil on a marine shoreline compared to natural attenuation without 
amendments. I repeated a similar experiment in 1999[2] on a Quebec 
freshwater wetland and again in 2001[3] on a Nova Scotia salt marsh in 
collaboration with our Canadian government partners. In addition to 
those field studies, I led a research team in developing laboratory 
protocols to test the effectiveness of commercial bioremediation agents 
and chemical dispersant products for use in treating oil spills[4-6]. I 
have conceived and led numerous other studies to understand how best to 
respond to and mitigate oil spills on land.

The Environmental Threat of Oil Spills

    Why does oil spill research need to be continued? From 1980 to 
2003, one study[7] (http://www.epa.gov/OEM/docs/oil/fss/fss06/
etkin<INF>-</INF>2.pdf) reported more than 280 million gallons of oil 
(about 12 million gallons/year) were discharged to the inland waters of 
the U.S. or its adjoining shorelines in about 52,000 spill incidents. 
Even though larger oil spills from ocean-going tanker accidents have 
been on the decline over the last several decades, I believe the number 
of inland spills will likely increase due to greater emphasis on 
domestic oil production and higher volume production of alternative 
fuels such as biofuels, as our nation continues to address its 
independent energy security needs. Waterborne transportation of oil in 
the U.S. continues to increase, and the volume of oil spilled from tank 
barges has remained constant at approximately 200,000 gallons spilled 
each year. EPA is also concerned about spills from pipelines and above 
ground storage tanks that could contaminate surface and/or ground 
waters. These are the major source of inland oil spills nationwide[7]. 
So, the spill threat continues even without consideration of domestic 
alternative fuel development. An oil discharge to the waters of the 
U.S. can affect drinking water supplies; sicken and/or kill fish, 
animals, and birds; foul beaches and recreational areas; and persist in 
the environment, harming sensitive ecosystems. Little is known about 
the effect of spills of biodiesel, emerging biofuels, or by-products 
from their manufacture on watersheds. Consequently, research is 
critically essential not only to continue to find effective ways to 
mitigate and respond to petroleum spills but also to understand the 
potential adverse human and environmental consequences of alternative 
fuels and non-petroleum oils and to develop effective clean-up tools to 
mitigate any adverse consequences. Recent research on vegetable oils 
and biodiesel blends suggests that the biodegradability and 
environmental persistence of these oils is very complex[8]. Developing 
an understanding of the potential environmental impacts associated with 
spills of these oils requires fundamental research. Without this 
understanding, the potential is significant for greater environmental 
harm if the wrong steps are taken to respond to and mitigate these 
spills.

EPA's Role in Spill Response

    The National Oil and Hazardous Substance Pollution Contingency Plan 
(NCP) has established a successful oil spill response framework 
defining the roles of federal agencies, and this has been in effect for 
41 years. In addition to EPA's normal role in spill response and 
planning, the NCP serves as the basis for actions taken in support of 
the National Response Framework, when Emergency Support Function (ESF) 
#10 is activated. The National Response Framework is a guide that 
details how the Nation conducts all-hazards response, from the smallest 
incident to the largest catastrophe. The Framework identifies the key 
response principles and the roles and structures that organize national 
response. ESF #10 provides for a coordinated federal response to actual 
or potential oil and hazardous materials incidents. EPA or DHS/USCG 
serves as the primary agency for ESF #10 actions, depending upon 
whether the incident affects the inland or coastal zone, respectively. 
For incidents affecting both, EPA is the primary agency and DHS/USCG 
serves as the deputy. In addition, EPA serves as the ESF #10 
Coordinator.
    EPA also plays a key role on the U.S. National Response Team (NRT), 
which is chaired by EPA and vice-chaired by the U.S. Coast Guard. The 
NRT is an organization of 16 federal departments and agencies 
responsible for coordinating emergency preparedness and response 
activities for oil and hazardous substance pollution incidents and 
provides federal resources, technical assistance, and policy guidance 
as defined in the NCP. The Science and Technology Committee, which is 
the NRT's science arm and of which I am a participating member, 
provides a forum for the NRT to fulfill its delegated responsibilities 
in research and development. Users of and sometimes collaborators in 
our research include multi-agency regional response teams, EPA's 
environmental response team, EPA and Coast Guard federal on-scene 
coordinators (FOSCs) responsible for oil spill response, and other 
government agencies such as NOAA, Minerals Management Service (MMS), 
Fish and Wildlife Service, and states. Not only do these U.S. 
organizations rely significantly on EPA research results, the 
international community does as well.

Past and Current Research

    The specific objective of EPA's oil spill research program is to 
provide environmental managers with the tools, models, and methods 
needed to mitigate the effects of oil spills on ecosystems. The 
research includes development of practical solutions to mitigate spill 
impacts on freshwater and marine environments; development of remedial 
guidelines that address the environment, type of oil (petroleum and 
non-petroleum oils), and agents for remediation; and modeling fate and 
effects in the environment. Spill mitigation research includes 
bioremediation, chemical and physical countermeasures, and ecotoxicity 
effects. Fate and effects research focuses on modeling the transport of 
oil in a variety of settings with application to field situations.
    The work described above has resulted in new protocols for testing 
the effectiveness of commercial oil spill treating agents, guidance 
documents for implementing bioremediation in different environments, a 
clearer understanding of the impact and persistence of non-petroleum 
oil spills in the environment, and development of potentially new 
treatment approaches. Important on-going research is helping to 
understand oil persistence long after the initial spill incident, such 
as the Exxon Valdez oil that still lingers in certain areas of Prince 
William Sound, Alaska. This research has conclusively shown that the 
lingering oil is still quite biodegradable despite persisting for over 
20 years in the subsurface. Why is this important? Because, if oil that 
has been treated after a spill lingers long after the cleanup, then we 
need to understand if the lingering oil still poses an environmental 
threat to the habitat and the resources at risk. If it does, we must 
learn why it still lingers and develop means to remove this lingering 
oil to safeguard the ecosystem.
    Ten years ago, we began conducting research on non-petroleum oil 
such as vegetable oils and animal fats. This anticipatory research 
investment will be invaluable as the national emphasis on biofuels 
development gains traction because vegetable oils and animal fats are 
the primary feedstocks for biodiesel production. Contrary to some 
claims, we have found that edible oils are not as ``biodegradable as 
sugar'' in the environment because of the complexity of chemical 
interactions among saturated and unsaturated fatty acids.

Future Research

    Biodiesel will play a crucial role in our nation's domestic fuel 
source development. Future research will include multiple fuel types 
and blends that result from passage of the Energy Independence and 
Security Act of 2007 (EISA), including changes in fuels as a result of 
the Renewable Fuel Standard (RFS) Program. We initiated an important 
project in 2008 to study the comparative biodegradability of soybean 
oil-based biodiesel blends ranging from B0 (pure petrodiesel) to B100 
(pure biodiesel). We are initiating testing of other types of 
biodiesels consistent with anticipated alternative fuel feedstock usage 
in the U.S. An important by-product in the production of biodiesel is 
glycerin, and we need to understand how to deal with spills of glycerin 
in flowing streams (spills have already caused large fish kills). 
Ethanol/gasoline blends, their fate and transport in freshwater bodies, 
and our need to understand the spill impacts of these blended fuels are 
another high priority research area as greater quantities of blended 
fuels and potentially greater ethanol percentages are handled. EPA is 
the only federal agency actively engaged in researching this particular 
topic. Second generation biofuels will be studied in the near future, 
such as biobutanol, whose properties are more similar to gasoline than 
alcohol.
    The behavior of other oil types, including synthetic oils and 
lubricants, has not been characterized scientifically. An important 
topic not previously addressed in our research program is a mixed spill 
incident (e.g., a biofuel and an organic chemical). We need a better 
understanding of the consequences of such scenarios to help FOSCs from 
both the EPA and the Coast Guard respond appropriately.
    As for spills that occur near or in Arctic regions, EPA plans to 
pursue partnering with the Canadian government to conduct pilot-scale 
dispersant research in icy waters at a jointly owned wave tank facility 
in Nova Scotia and field research on dispersant effectiveness and use 
in Arctic waters. Protection of this environment will become more 
critical as global climate change affects the integrity of the glacial 
ice fields in the Arctic.
    Finally, EPA's Environmental Response Team (ERT) plays a key role 
in testing and validating monitoring equipment in collaboration with 
the MMS at the Oil and Hazardous Materials Simulated Environmental Test 
Tank (OHMSETT) Facility in New Jersey to understand oil monitoring 
systems under the Special Monitoring and Response Technologies (SMART) 
protocol. This interaction allows ERT and the Coast Guard to be trained 
on oil spill monitoring equipment for detecting oil in the water 
column. This understanding is important in light of the Coast Guard's 
Response Capabilities rule coming out soon dealing with dispersant 
usage.

Summary and Conclusions

    In conclusion, I want to emphasize that EPA's oil spill research 
program is an applied, practical program that seeks to provide answers 
to real and important emergency spill response and environmental 
protection challenges based on high quality, sound science. Our 
research informs EPA's regulatory decision-making and policy 
development for oil spill prevention, preparedness, and response 
programs and the National Response Team. EPA's oil spill research work 
is vitally important to the protection of the environment from the harm 
associated with oil spills. So, it is vital that EPA's R&D program 
continue to provide its knowledge and expertise in spill response and 
prevention. In the 20 years that I have led this program, we have 
published over 85 peer-reviewed journal articles, three guidance 
documents, and 79 conference proceedings papers. Thus, the research 
program has been highly productive and successful both nationally and 
internationally.
    Thank you for the opportunity to address the Committee. I am happy 
to answer your questions.

References

        1.  Venosa, A.D., M.T. Suidan, B.A. Wrenn, K.L, Strohmeier, 
        J.R. Haines, B.L. Eberhart, D. King, and E. Holder. 1996. 
        ``Bioremediation of an experimental oil spill on the shoreline 
        of Delaware Bay.'' Environmental Science and Technology 
        30(5):1764-1775.

        2.  Venosa, A.D., K. Lee, M.T. Suidan, S. Garcia-Blanco, S. 
        Cobanli, M. Moteleb, J.R. Haines, G. Tremblay, and M. 
        Hazelwood. 2002. Bioremediation and biorestoration of a crude 
        oil contaminated freshwater wetland on the St. Lawrence River. 
        EPA/600/J-02/432.

        3.  Garcia-Blanco, S., A.D. Venosa, M.T. Suidan, K. Lee, S. 
        Cobanli, and J.R. Haines. 2007. ``Biostimulation for the 
        treatment of an oil-contaminated coastal salt marsh,'' 
        Biodegradation, 18(1):1-15.

        4.  Venosa, A.D., D.W. King, and G.A. Sorial. 2002. ``The 
        baffled flask test for dispersant effectiveness: a round robin 
        evaluation of reproducibility and repeatability.'' Spill Sci. & 
        Technol. Bulletin 7(5-6):299-308.

        5.  Sorial, G.A., A.D. Venosa, K.M. Miller, E. Holder, and D.W. 
        King. 2004a. ``Oil spill dispersant effectiveness protocol--
        Part I. Impact of operational variables.'' ASCE J. Env. Eng. 
        Div., 130(10):1073-1084.

        6.  Sorial, G.A., A.D. Venosa, K.M. Miller, E. Holder, and D.W. 
        King. 2004b. ``Oil spill dispersant effectiveness protocol--
        Part II. Performance of the revised protocol.'' ASCE J. Env. 
        Eng. Div., 130(10):1085-1093.

        7.  Etkin, D.S. 2006. Risk assessment of oil spills to U.S. 
        inland waterways. (http://www.epa.gov/OEM/docs/oil/fss/fss06/
        etkin<INF>-</INF>2.pdf)

        8.  Campo-Moreno, P., Y. Zhao, M.T. Suidan, and A.D. Venosa. 
        2007. ``Biodegradation kinetics and toxicity of vegetable oil 
        triacylglycerols under aerobic conditions,'' Chemosphere, 
        68(11):2054-2062.

                     Biography for Albert D. Venosa
    Dr. Venosa is the Director of the Land Remediation and Pollution 
Control Division, National Risk Management Research Laboratory in EPA's 
Office of Research and Development. He manages and directs the 
Division's science and research programs and conducts research in his 
area of expertise, which is oil spill remediation and mitigation. From 
1990 to 2009, Dr. Venosa served as Senior Research Scientist and 
Program Manager, Oil Spill Research Program. Dr. Venosa's 20 years of 
work in this area include membership on the science team for the Alaska 
Oil Spill Bioremediation Project involved with assessing effectiveness 
of nutrient formulations in the field for stimulating enhanced 
biodegradation of contaminated shorelines in Prince William Sound. In 
1990 he led an independent field study to determine if commercial 
bioremediation agents could accelerate biodegradation in multiple field 
plots. From 1986 to 1988, he served as EPA's Chairman of the Pathogen 
Equivalency Committee in the sludge research program, and for the 
previous 18 years he was the National Program Manager for ORD's 
Municipal Wastewater Disinfection Program.
    Dr. Venosa holds a Doctor of Philosophy degree in Environmental 
Science, a Master of Science degree in Environmental Engineering, and a 
Bachelor of Science degree in Microbiology from the University of 
Cincinnati. His research interests and expertise include developing 
protocols for testing the effectiveness of commercial bioremediation 
products for biodegrading crude oil in seawater; developing protocols 
for chemical countermeasure products such as dispersants, surface 
washing agents, and solidifiers in freshwater, beach sediments, 
wetlands, and soils; conceiving methods for microbiological and 
chemical analysis of oil spill remediation activities; and advancing 
our knowledge in the area of improved scientific and practical 
understanding of the mechanisms of biodegradation of petroleum 
hydrocarbons, especially polycyclic aromatic hydrocarbons. Dr. Venosa 
has received numerous awards for his work and has been lead author on 
37 out of a total of 121 peer-reviewed scientific publications 
throughout his career.

    Chairman Baird. Thank you, Dr. Venosa.
    Mr. Watson.

    STATEMENT OF REAR ADMIRAL JAMES A. WATSON, DIRECTOR OF 
PREVENTION POLICY FOR MARINE SAFETY, SECURITY AND STEWARDSHIP, 
       DEPARTMENT OF HOMELAND SECURITY, U.S. COAST GUARD

    Admiral Watson. Good afternoon, Chairman Baird and 
distinguished Members of the Committee. I am grateful for the 
opportunity to testify before this committee on the subject of 
federal oil spill research and development.
    The Coast Guard has been the lead federal agency for 
coastal zone oil and HazMat response since 1968, and I have 
been personally involved with oil and HazMat prevention and 
response my entire Coast Guard career. As an engineer and first 
responder, I value research and development.
    In the area of maritime pollution prevention and response 
in particular, R&D has been a major factor in reducing both the 
number of major oil incidents and the quantities left in the 
environment after an accident.
    For example, the annual number of oil spills greater than 
100 gallons has decreased from over 300 per year to less than 
100 since 1996. Simultaneously, recovery rates, which are 
historically less than 15 percent, are improving. Today we are 
recovering as much as three times the historic rate due to 
better planning, more response capacity, and better projections 
and recovery equipment. I attribute many of these improvements 
to the collective efforts of government agencies and industry 
following the passage of the Oil Pollution Act of 1990.
    OPA 90 created and integrated team-based approach, which 
successfully leveraged the federal on-scene coordinator 
leadership attributes of the Coast Guard and the EPA at both 
the national and local level, as well as the technical and 
scientific capabilities of NOAA, the Minerals Management 
Service, U.S. Fish and Wildlife Service, U.S. Navy, State and 
environmental agencies, and universities nationwide.
    The Coast Guard's own research and development center which 
just recently moved from Groton, Connecticut, to New London, 
Connecticut, has been included in the collective R&D effort 
since well before 1990, and continues to be productive in oil 
and HazMat R&D.
    While EPA tends to focus on toxicity and NOAA on oil 
behavior and impacts and MMS and offshore blowouts, for 
example, Coast Guard's R&D is currently focused on sensors for 
aircraft, recovery of submerged oil, and oil and ice and 
decision-making tools for the responders. This distribution of 
labor for R&D is being monitored and reported to Congress in 
accordance with Section 7001 of OPA 90, which established the 
Interagency Coordinating Committee on Oil Pollution Research. 
The Coast Guard shares this interagency committee and provides 
the biannual report to Congress. Coast Guard personnel must 
stay closely plugged into the various R&D facilities, 
conferences, and publications to fulfill their duty.
    But speaking as a federal on-scene coordinator myself and 
as a beneficiary of these collective R&D efforts, I can tell 
you the benefits have far exceeded the cost of participating 
with this interagency R&D effort. We estimate that a recovery 
capability increase of 10 percent would have saved over $1 
billion in response and environmental damage based on the cost 
figures since 1992.
    Despite past successes, much more R&D is needed. We are 
just beginning to understand and solve the challenges of 
submerged oil, oil and ice, dispersed oil, oil in fast 
currents, and biofuels in water. We are pleased to see other 
nations and even the maritime industry taking on these 
challenges.
    For example, Norway is conducting a major oil and ice 
analysis, and oil companies are engaged with Coast Guard 
engineers in the conceptual stages for high-latitude prevention 
and response capabilities.
    Thank you for the opportunity to testify today. I will be 
happy to take your questions.
    [The prepared statement of Rear Admiral Watson follows:]
           Prepared Statement of Rear Admiral James A. Watson
    Good Morning Mr. Chairman and distinguished Members of the 
Committee. It is a pleasure to appear before you today to discuss Coast 
Guard oil spill response research efforts.
    The passing of Oil Pollution Act of 1990 (OPA 90) represented a 
significant paradigm shift for the Coast Guard. That historic 
legislation provided the Nation with the means to immediately access 
and distribute funding for oil spill response efforts; made the spiller 
the responsible party with very specific requirements; and provided a 
process to restore the marine environment to its pre-incident 
condition. With this legislation came annual funding for the Coast 
Guard to take the lead in oil spill prevention, response, and research 
and development.
    The Coast Guard continues to appreciate the significance of the 
Exxon Valdez event. After running aground at Bligh Reef and spilling 
over 10 million gallons of oil into Prince William Sound at Valdez, 
Alaska, this incident became the catalyst for stricter environmental 
protections and regulations. For the Nation, and for the Coast Guard, 
the impacts served as the catalyst for developing a stronger regime to 
improve the shipment of oil and the way oil spills are handled on the 
water and in the courtroom. The Coast Guard's research and development 
program ensures we retain the critical expertise and capabilities to 
prepare, prevent, and, if necessary, respond and recover from future 
incidents in an increasingly complex national and global operating 
environment.
    The United States has a comprehensive framework for oil spill 
prevention, preparedness and response that is fully supported by the 
Coast Guard's Research and Development Center (R&DC). While several 
other agencies, including the Department of Commerce, the Department of 
the Interior, and the Environmental Protection Agency, have important 
roles in oil spill clean-up and oil spill research, my testimony will 
focus specifically on the Coast Guard's roles. For more than 25 years, 
the R&DC has maintained a comprehensive, long-term research program to 
improve oil spill response technologies. The major focus of the program 
is to improve the knowledge, technologies and methodologies used for 
the detection, containment and cleanup of oil spills. I am encouraged 
by the significant advancements we have made since the Exxon Valdez 
incident and the passage of OPA 90.
    Ship designs for tankers are mandated to have double hulls. The OPA 
90 phase-out schedule requires existing single-hulled tank vessels be 
retrofitted with a double hull or phased out of operation by 2015.
    A basic tenet of OPA 90 holds that those responsible for oil 
pollution incidents are liable for clean up costs and compensation 
damages. Currently over 22,500 vessels carrying oil in U.S. waters hold 
active Certificates of Financial Responsibility to satisfy this 
requirement.
    Regulations tightened the authorities of the Federal On-Scene 
Coordinator (FOSC) to oversee spill response as well as preparedness 
activities at the local level. This is consistent with the Nation's 
approach to response as represented in the National Response Framework 
(NRF). In a sense, this approach was well ahead of its time and remains 
a model for integrating all entities, including private industry, into 
effective response organizations.
    We must be mindful that our Marine Transportation System is the 
lifeblood of our national economy. Part of that is the shipping of oil. 
Three months ago, the 900 foot tanker SKS SATILLA hit a submerged jack-
up rig in the Gulf of Mexico while carrying 41 million gallons of crude 
oil--nearly four times the amount spilled by the Exxon Valdez. 
Thankfully, the double hull protection put into place by OPA 90 
protected the cargo. The stakes remain high. We must continue to work 
together--the public and private sectors--to ensure we remain prepared 
and get this right.
    We have learned a great deal from the Exxon Valdez incident and 
have made tremendous progress. Work still remains. And these efforts 
are dependent on our oil spill research efforts. The ideas, standards, 
and technologies that have emerged from the R&DC benefit all spill 
responders; federal, State, local and private sector.

U.S. Coast Guard Research & Development Center Accomplishments:

    The R&DC has been instrumental in identifying and developing 
prevention capabilities which have benefited mariners, ship to ship and 
ship to shore communications, and naval architecture. They have 
assessed risks associated with human-factors (e.g., crew fatigue and 
certification requirements), harbor management (e.g., Automated 
Information Systems), and hull design. Furthermore, the R&DC evaluated 
alternatives to double-hull designs and provided the foundation for our 
regulatory initiatives by assessing vessel self-help response methods.
    Coast Guard research efforts have also greatly advanced our 
preparedness in consequence planning and response management. Databases 
have been developed for response equipment and spill histories and are 
widely used in contingency planning and commercial product evaluations. 
Additionally, the Oil Spill Command & Control System (OSC2) prototype 
has become integrated into the Coast Guard enterprise Command, Control, 
Communications, Computers, and Information Technology (C4IT) system and 
the Marine Information for Safety and Law Enforcement system. R&DC 
efforts to support response management also includes curriculum 
development, training, and developing safety guidelines for field 
personnel and the three strike teams, and ensuring Coast Guard 
personnel are familiar with current and emerging response technologies. 
The Multi-Agency Team-Building Enhancement System (MATES) that was 
developed by the R&DC is used for Incident Command System (ICS) 
training. R&DC is also responsible for developing airborne radar and 
infrared sensors used for oil spill response operations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The R&DC has provided the Coast Guard with advanced oil containment 
and recovery countermeasures. Immediately after EXXON VALDEZ, the R&DC 
provided the critical technical information requirements, fielded 
prototypes, and tested the first articles of modern oil spill response 
equipment for the Coast Guard's National Strike Force. The Vessel of 
Opportunity Skimming System (VOSS) is a unique pre-positioned recovery 
system that is designed for both Coast Guard cutters and private sector 
commercial vessels. The R&DC has also developed the Spilled Oil 
Recovery System (SORS) for the 16 Coast Guard Juniper Class buoy 
tenders. Other recovery and countermeasure technologies include: (1) 
fast-water response boom and skimmers; (2) temporary storage devices; 
(3) oil/water separation systems; (4) in situ burning; and (5) 
technology capability decision support.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The R&DC partners with other governmental agencies and the private 
sector. The Coast Guard helped expand the Nation's testing 
infrastructure by re-establishing the Oil and Hazardous Materials 
Simulated Environmental Test Tank (OHMSETT) in Leonardo, New Jersey, in 
cooperation with the Minerals Management Service.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the last twenty years the Nation has seen a decrease in the 
annual number of spills over 100 gallons (per 100 million tons 
shipped); 25 spills met this criteria in 2002 and only 19 in 2007. The 
following graph shows 10 years of data on the total amount spilled by 
source. From 1999 to 2007 (the latest available data), an average of 
only three gallons of oil were spilled for every one million gallons of 
oil transported over the inland river system. This is due to the 
significant increase over the last 20 years in federal and industry 
partnerships supporting maritime oil transportation, the application of 
OPA 90 standards and safeguards, and enhanced prevention and response 
capabilities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Coast Guard continues to lead the National Response System in 
research and development. In addition to these efforts with federal and 
State agencies, we have fostered strong partnerships with vessel 
owners, facility operators, Oil Spill Removal Organizations, and 
academia. The oil spill research and development conducted through the 
U.S. Coast Guard R&DC and its partnerships is positioned ideally in a 
research-prevent-respond system. By adopting the latest response 
tactics, techniques, and procedures fostered and facilitated through 
R&D efforts, our new Deployable Operations Group can tailor adaptive 
force packages--including Coast Guard National Strike Force personnel--
to meet any maritime response need. Additionally, the U.S. Coast Guard 
Marine Safety Laboratory (MSL) provides forensic oil analysis and 
expert testimony in support of the oil pollution law enforcement 
efforts for Marine Investigators, Department of Justice, and other 
federal agencies. Finally, our National Pollution Funds Center ensures 
the Oil Spill Liability Trust Fund is ready to finance rapid, response 
and recovery. Most importantly, the financial responsibility has been 
placed on the polluters. Since OPA 90 was enacted, over $234 million 
has been recovered and returned to the Fund.
    Oil spill prevention and response actions need proven techniques, 
technologies, and training. Continued investment in research and 
development funding is crucial to developing the tools needed for the 
variety of situations encountered--before they are needed.
    We are positioning ourselves to meet future challenges. One example 
is the Arctic. The Commandant has previously stated, ``there is water 
where there was once ice and the Coast Guard has a responsibility for 
it.'' As we develop our operating requirements to meet the mandates of 
the NSPD-55/HSPD-25, Arctic Presidential Decision Directive, it is 
clear our country needs the specialized capability of harsh environment 
oil spill response. As Arctic ice recedes, opening up new shipping 
routes and new areas for energy exploration, we must be aware of the 
economic and environmental implications. We have made significant 
progress, but there is still much left to be done to address future 
conditions. In the upcoming years, we must address the more challenging 
responses associated with harsh environments such as submerged oil and 
oil in or under ice.
    I appreciate Congressional support for our oil spill response 
research and development and look forward to upcoming discussions on 
the future of the Coast Guard's service to America. Thank you for the 
opportunity to testify today. I look forward to your questions.

               Biography for Rear Admiral James A. Watson
    Rear Admiral James Watson is currently Director of Prevention 
Policy for Marine Safety, Security and Stewardship, Coast Guard 
Headquarters, Washington DC. Previous to this assignment he served as 
Chief of Staff of the Seventh Coast Guard District in Miami, FL and 
Chief, Office of Budget and Programs, Coast Guard Headquarters. Prior 
field assignments include: Commanding Officer Marine Safety Office 
Miami (2001-2004), Commanding Officer Marine Safety Office San Diego 
(1995-1998), Executive Officer Marine Safety Office Savannah (1992-
1995), Chief of Port Operations Marine Safety Office Puget Sound (1989-
1992), and Engineering Officer USCGC Bibb (1978-1980). Headquarters 
staff assignments have included: Program Reviewer--Office of Budget and 
Programs (1998-2000), Staff Naval Architect--USCG Marine Safety Center 
(1986-1989), Staff Engineer--Marine Technical and Hazardous Materials 
Division (1980-1983).
    Rear Admiral Watson graduated from the Coast Guard Academy in 1978 
with a Bachelor of Science in Marine Engineering. In 1985 he earned two 
Master of Science degrees from the University of Michigan, one in 
Mechanical Engineering and the other in Naval Architecture. In 2001 he 
graduated from Industrial College of the Armed Forces with a Master's 
degree in Strategic Studies.
    Rear Admiral Watson has been a member of the Society of Naval 
Architects and Marine Engineers since 1978. He was recognized as the 
Southeastern United States Propeller Club Person of the Year in 2004. 
His personal military awards include two Legion of Merits, two 
Meritorious Service Medals, and six Coast Guard Commendation Medals.

    Chairman Baird. Mr. Edinger.

STATEMENT OF MR. STEPHEN L. EDINGER, ADMINISTRATOR, CALIFORNIA 
  DEPARTMENT OF FISH AND GAME, OFFICE OF SPILL PREVENTION AND 
                            RESPONSE

    Mr. Edinger. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to testify before you today 
regarding California's experience and perspective on the status 
of oil spill response technologies. I am the Administrator of 
the Office of Spill Prevention Response, also known as OSPR. I 
oversee more than 200 employees dedicated to protecting 
California's habitats and wildlife from the devastating effects 
of pollution.
    OSPR was established by the Lempert-Keene-Seastrand Oil 
Spill Prevention Response Act of 1990 following the Exxon 
Valdez oil spill in 1989, and the oil trader spill in southern 
California in 1990. OSPR is one of the few State-level entities 
in the Nation that has both major pollution response authority 
and public trustee authority for wildlife and habitat.
    OSPR has a legislative mandate to ensure that California's 
natural resources receive the best protection through oil spill 
prevention, preparedness, response, and restoration. I am 
required to consider using processes that are currently in use 
anywhere in the world to obtain the best achievable technology.
    Today I will share some of my observations from the 
November 7 motor vessel Cosco Busan oil spill in San Francisco 
Bay. I will emphasize some of the gaps in the oil spill 
technologies that remain. I will highlight some of the 
effective oil spill technologies utilized by OSPR that were 
developed as a result of the enactment of State and federal oil 
spill legislation.
    On the morning of November 7, 2007, the motor vessel Cosco 
Busan, a 900-foot container ship, departed the port of Oakland 
with visibility estimated at less than one-fourth nautical 
mile. The Cosco Busan collided with one of the towers of the 
San Francisco Bay Bridge, resulting in the breach of three 
tanks, spilling 53,000 gallons of bunker fuel in the San 
Francisco Bay.
    In the following weeks, 43 percent of the oil spilled into 
the Bay was recovered. While the response to the Cosco Busan 
oil spill was a success, improvements in technologies could 
have increased recovery of oil and protection of the 
environment.
    Two technologies that might have increased oil recovery 
include oil detection during reduced visibility or nighttime 
conditions and oil containment in high-velocity environments. 
Oil recovery is hampered during times of reduced visibility. As 
demonstrated during the Cosco Busan response, fog hindered 
accurate trajectory analysis and on-the-water recovery. We lack 
a critical tool to detect concentrations of oil during periods 
of restricted visibility.
    About booming. Conventional containment and exclusion booms 
begin to fail when currents exceed three-fourths of a knot. We 
need a deployable boom that operates effectively in complex, 
high-velocity currents that are frequently encountered in the 
coastal environments.
    While I mentioned two technologies that need improvement, 
there are examples of emerging technologies utilized by OSPR. 
One is multi-spectral and thermal imaging. This imaging 
technology uses a combination of sensors to capture imagery 
from wavelengths outside of the human visible light range. This 
imaging system has enabled rapid oil spill mapping and far 
greater quantitative and geographical accuracy than was 
possible using only visual observations.
    And the other is high-frequency radar surface current 
monitoring. Along the California coastline high-frequency radar 
stations record ocean currents. Surface current data were used 
extensively during the Cosco Busan response to create 
trajectories, using real-time conditions. These trajectories 
aided in the identification and protection of environmentally-
sensitive sites at risk.
    About our role in federal research and development, we 
would support a continued and increased role with respect to 
identification of research priorities and practical application 
of new methods and technologies.
    In conclusion, OSPR and the State of California recognize 
the need for continued improvement in the prevention and 
response to oil spills. OSPR is committed to utilizing the best 
achievable technologies as required by statute to provide for 
the best achievable protection of the marine environment. We 
support federal research efforts to provide or to improve and 
develop technologies that address these issues.
    Again, I would like to thank you for the opportunity to 
address the Subcommittee. I would be happy to respond to any 
questions you may have.
    [The prepared statement of Mr. Edinger follows:]
                Prepared Statement of Stephen L. Edinger
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify before you today regarding California's 
experience and perspective on the status of oil spill response 
technologies.
    I am Stephen Edinger, Administrator for the California Department 
of Fish and Game, Office of Spill Prevention and Response (OSPR). I was 
appointed as Administrator by Governor Arnold Schwarzenegger last 
November. Prior to taking this appointment, I spent 28 years in law 
enforcement, working for State and federal agencies, protecting the 
natural resources of California. I have investigated or served as the 
incident commander on hundreds of pollution events across California. 
Today, I oversee more than 200 employees dedicated to protecting 
California's habitats and wildlife from the devastating effects of 
pollution.
    OSPR was established by the Lempert-Keene-Seastrand Oil Spill 
Prevention and Response Act of 1990 following the Exxon Valdez oil 
spill in 1989 and the American Trader spill in Southern California in 
1990. OSPR is one of the few State-level entities in the Nation that 
has both major pollution response authority and public trustee 
authority for wildlife and habitat.
    OSPR has a legislated mandate to ensure that California's natural 
resources receive the best protection through oil spill prevention, 
preparedness, response and restoration. Specifically, I am required to 
provide for the ``best achievable protection'' which is defined as the 
highest level of protection that can be achieved through both the use 
of the best achievable technology and those manpower levels, training 
procedures and operational methods that provide the greatest degree of 
protection achievable. Additionally, I am mandated to consider using 
processes that are currently in use anywhere in the world to obtain the 
``best achievable technology.''
    I am proud of OSPR's close collaboration with federal partners. Our 
relationships with the U.S. Coast Guard, U.S. Environmental Protection 
Agency, U.S. Minerals Management Service (MMS) and other federal 
natural resource trustees have helped shape OSPR into the premier spill 
response program in the Nation. We work closely with these agencies in 
a variety of efforts including planning, training, prevention, research 
and development, and spill response.
    Today, I will share some of my observations from the November 2007 
M/V Cosco Busan oil spill in the San Francisco Bay. I will also 
emphasize some of the gaps in oil spill response technologies that 
remain. I will highlight some of the effective oil spill technologies 
utilized by OSPR that were developed as a result of the enactment of 
State and federal oil spill legislation.

M/V Cosco Busan Oil Spill

    On the morning of November 7, 2007, the M/V Cosco Busan was at 
berth 56, at the Port of Oakland located on the Oakland Estuary. The 
Cosco Busan, a 900-foot container ship, departed with visibility 
estimated at less than one-fourth nautical mile. The Cosco Busan 
allided with one of the towers of the San Francisco Bay Bridge, 
resulting in the breach of three port wing tanks, spilling 53,000 
gallons of bunker fuel into the San Francisco Bay. For almost three 
weeks, I served as California's incident commander. My role in this 
response gave me a unique perspective on the use and availability of 
oil spill technology.
    The spill response by Federal, State, local government and private 
contractors was immediate and aggressive. Within 90 minutes of the 
incident, the oil spill response organizations had the on-scene 
recovery capability of 1.5 million gallons. The total on-water recovery 
capability on scene within six hours was more than 2.4 million gallons. 
However, effective deployment of assets was hampered by the very fog 
that contributed to the accident. The first helicopter overflight was 
not conducted until more than five hours after the allision.
    Oil recovery and cleanup operations in and around the San Francisco 
Bay continued for months following the accident. Recovery rates of oil 
well exceeded industry norms. Forty three percent of the oil spilled 
into the bay was recovered.
    By comparison, on July 23, 2008, a collision between a barge and 
tanker resulted in 250,000 gallons of fuel oil discharged into the 
Mississippi River near downtown New Orleans. This spill resulted in the 
closure of river traffic and disruption of commerce for weeks. Less 
than 12 percent of the fuel oil was recovered.
    While the response to the Cosco Busan oil spill was a success, 
improvements in current technologies could have increased recovery of 
oil and the protection of the environment.

Examples of Technology Needing Improvement

Oil Detection During Reduced Visibility or Nighttime Conditions
    One of the highest priorities during an oil spill is to contain and 
remove the oil from the water as early as possible. However, oil 
recovery is hampered during times of reduced visibility. As 
demonstrated during the Cosco Busan response, fog hindered accurate 
trajectory analysis and on-water recovery. Skimming operations were 
shut down at night because there was no mechanism for detecting the 
oil. While thermal imaging is an effective oil detection tool, fog 
limits the use of this technology. We lack a critical tool to detect 
concentrations of oil during periods of restricted visibility.

Containment in High Velocity Environments
    Conventional containment and exclusion booms begin to fail when 
currents exceed three-fourths knots This limitation makes spill 
containment and protection of environmentally sensitive areas difficult 
if not impossible. We need a deployable boom that operates effectively 
in complex, high-velocity currents that are frequently encountered in 
coastal environments.

Chemical Dispersants
    Chemical dispersants break oil into smaller particles that move 
into the water column. Currently, chemical dispersants are applied as a 
sprayed mix of water and dispersant onto freshly spilled oil. The type 
of oil, degree of weathering, sea state and other environmental 
conditions into which chemical dispersants can be applied safely and 
effectively, are limited. New delivery systems for dispersant 
applications including gels or other encapsulating forms show promise. 
However more research and testing are needed.

Ship Simulators
    Ship simulators show tremendous potential in preventing maritime 
accidents. Just as airline pilots use simulators, they can be used by 
ship pilots and vessel masters to practice entering and navigating 
different California harbors and responding to different shipboard 
emergencies, such as loss of power or loss of steering. However, 
development of future simulators requires funding and programmatic 
support to improve and strengthen maritime navigational safety.

Examples of Emerging Technology Utilized by OSPR

Multi-spectral and Thermal Imaging
    One of the most important initial steps in response to an oil spill 
at sea is the assessment of the extent of the oil slick and the 
quantity (i.e., thickness) and distribution of oil within it. Since 
most oils rapidly spread to very thin layers when released at sea, 
accurate determination of which areas contain the most amount of oil is 
vital for efficiently guiding oil spill response efforts. This emerging 
technology uses a combination of sensors to capture imagery from 
wavelengths outside of the human visible light range.
    Platform A, located in federal waters six miles off of the Santa 
Barbara coast developed a leak in an oil tank in December 2007. We 
successfully utilized multi-spectral and thermal imaging technology 
developed by OSPR, MMS and a Southern California company to locate and 
characterize the slick. The Platform A oil spill response was OSPR's 
first operational use of remote sensing technology to confirm the 
presence of oil on the ocean's surface, accurately map the extent of 
the oil slick, classify the remote sensing images into oil thickness 
categories and present these data on a mapping web site for use by the 
incident command in close to real time.
    This imaging system has enabled rapid oil spill mapping with far 
greater quantitative and geographical accuracy than is possible using 
only visual observations. Current planned refinements include improving 
the speed with which data can be captured, processed and disseminated.

High Frequency Radar Surface Current Monitoring
    Along the California coastline, high frequency radar stations 
record ocean currents. OSPR funded research with San Francisco State 
University and the Naval Postgraduate School that allows the 
dissemination of the data via the Internet in Geographic Information 
Systems (GIS) format. These data, collected as part of a national 
framework called the Integrated Ocean Observing System, are used to 
create oil trajectories, implement strategies to protect sensitive 
habitats and position oil recovery assets where they would be most 
effective. Surface current data were used extensively during the Cosco 
Busan response to create trajectories using real-time conditions. These 
trajectories aided in the identification and protection of 
environmentally sensitive sites at risk.

Physical Oceanographic Real Time System (PORTS)
    PORTS consists of a complex array of measuring instruments, cable, 
radio and telephone telemetry that compiles real time water levels, 
tide, current, salinity, and meteorological data for the channels, 
harbors and bays. It is an asset to safe navigation, spill response, 
search and rescue operations, and in the collection of historical data 
for determining long-term trends. The PORTS information is used on a 
daily basis by vessel operators, harbor pilots, educational 
institutions and recreational boaters.
    In the years since its inception in California in 1995, the system 
has enhanced navigational safety for the full range of commercial, 
passenger and recreational vessels, improved pollution response and 
supported both environmental protection and commerce in California. 
PORTS is a cooperative effort by the State of California, harbor 
authorities and NOAA. Under Gov. Schwarzenegger's leadership, OSPR has 
been able to fully fund PORTS in the San Francisco Bay.
    However, the use of PORTS in California has not reached its full 
potential. Due to limited funding,some harbors and commercial ports on 
the west coast lack access to the PORTS system. In addition, there is 
no mechanism to incorporate data from other systems, like the high 
frequency radar, into PORTS. Without a consistent funding effort for 
maintenance and upgrade improvements, PORTS will remain an effective 
but inconsistent tool for mariners. Currently, I am not aware of any 
new or upcoming technology that may be available to replace the PORTS 
system.

Geographic Information Systems
    Geographic Information Systems (GIS) are fully integrated into oil 
spill prevention and response in California. GIS has proven to be an 
excellent data management and organizational tool for drills, 
exercises, contingency planning, natural resource damage assessment, 
response and recovery. We generate large amounts of data during an oil 
spill, much with a geospatial component. The inherent ability to import 
and display convergent data layers provides the incident commanders 
with powerful decision-making tools. GIS products are routinely used to 
track the progress of the response, guide daily activities and support 
the incident investigation.

California's Role in Federal Research and Development

    OSPR's in-house research program has successfully partnered with 
federal agencies on several projects, as described earlier. For 
example, a proposal evaluated in OSPR's Scientific Study and Evaluation 
Program led to real world testing of multi-spectral and thermal imaging 
systems by the MMS at their Ohmsett facility in New Jersey.
    In addition, OSPR co-sponsors a highly successful biannual 
technology workshop that focuses on federal, State, academic and 
private research efforts.
    California has had limited but productive collaborations with the 
federal research program. My staff has served on National Academy of 
Science's panels evaluating chemical dispersants, the development of 
national research priorities in conjunction with the National 
Oceanographic and Atmospheric Administration's collaboration with the 
University of New Hampshire and the initial federal efforts for 
standardization of dispersant testing protocols. We would support a 
continued and increased role with respect to identification of research 
priorities and the practical application of new methods and 
technologies.

Conclusion

    OSPR and the State of California recognize the need for continued 
improvement in the prevention of and response to oil spills. OSPR is 
committed to utilizing the best achievable technologies as required by 
statute to provide for the best achievable protection of the marine 
environment. We support federal research efforts to improve and develop 
technologies that address these issues.
    Again, I would like to thank you for the opportunity to address 
this sub-committee. I would be happy to respond to any questions you 
may have.

                    Biography for Stephen L. Edinger
    Stephen Edinger is Administrator for the California Department of 
Fish and Game, Office of Spill Prevention and Response. A graduate of 
the University of California, Davis, Mr. Edinger was appointed as 
Administrator by Governor Arnold Schwarzenegger in November, 2008.
    Stephen Edinger has spent his professional career protecting 
California's wildlife and natural environments, serving over 28 years 
in environmental law enforcement. He began his career in 1982 as a law 
enforcement ranger with the National Park Service. He then spent eight 
years as a ranger with the California State Park System along the 
northern California coast. For the past 17 years, he has served in 
various capacities with the California Department of Fish and Game. Mr. 
Edinger has investigated or served as the incident commander on 
hundreds of pollution events across California. He served as 
California's incident commander during the M/V Cosco Busan oil spill 
response in November, 2007.
    Today Mr. Edinger oversees more than 200 employees dedicated to 
protecting California's habitats and wildlife from the devastating 
effects of pollution. He leads the Office of Spill Prevention and 
Response, which is recognized as the premiere spill response program in 
the Nation.

                               Discussion

    Chairman Baird. Thank you, Mr. Edinger.
    At this point I will recognize myself for five minutes.
    We have been joined, by the way, by Mr. Davis and Ms. 
Edwards. Thank you both for joining us.

         Achieving Necessary Research and Development Measures

    You know, one of the things that tends to happen to all of 
us, I suppose, is that when there is a big crisis, a massive 
spill, Exxon Valdez, we scramble jets, create legislation, we 
all respond, and then there is a natural sort of decline in 
focus maybe.
    I want to address that a little bit. Mr. Helton, you talked 
in your testimony a little bit, at least in the written 
testimony, about--that the comprehensive research, this is a 
quote, ``Comprehensive research and development envisioned by 
OPA has not been fully achieved.'' What needs to happen to make 
that happen, to make the vision a reality?
    Mr. Helton. I would say that the agencies are working 
together to try to fulfill that vision. Resources are a 
limitation. There is--that is a consideration. I think that the 
plans are there. It just needs to be implemented.
    Chairman Baird. Following up on that, OPA 90 created a 
coordinating committee on oil pollution research. What is the 
status of that committee? Does it meet regularly? Does it 
produce documents? Does it analyze effectiveness? What is the 
status of that?
    Admiral Watson. Yes, sir. It does meet. It works primarily 
through an ongoing amount of activity at conferences. There is 
research activity going on at the various laboratories, and 
the--I think that there is a constant communication between the 
various scientists, and then every two years there is a report 
that is compiled and submitted to Congress of all of the 
different activities. And these are categorized in the various 
different areas that help oil spill responders. In some cases 
it is the surveillance equipment, other cases it is the 
recovery equipment, the modeling oil in the water, the fate 
analysis of different types of oil over time in the water 
column, and so on.
    So I think one of the main intents of that was to make sure 
there is not duplication of effort and to make sure that there 
is dialogue, and I think those two things are happening. Can 
that committee be taken to another level? I think it could be. 
I think actually if you look backwards in time, you will see 
that one time it was involved with grants to states and 
universities, for example. It spent a lot more money out of the 
Oil Spill Liability Trust Fund for research and development. 
Some of those things are a function of appropriations. Some of 
it was sort of an ending of the authority, for example, for the 
grants and the Oil Spill Liability Trust Fund expenditures.
    Chairman Baird. That trust fund predominantly is designed--
it is my understanding and feel free to correct me if I am 
wrong, to help fund the cleanup operation. Does it also fund 
the research side of it?
    Admiral Watson. Yes, sir. It has in the past. I think--I 
don't know the big number of all of the dollars spent on 
research out of the fund. I do know since its inception the 
fund has provided approximately $51 million to the Coast 
Guard's R&D Program, and that is how we develop things like the 
vessel of opportunity's skimming system and the skimming system 
that we have built into our buoy tenders so that they are ready 
at any time for an oil spill, and all sorts of different 
things. The pump that was used on the new Carissa to get the 
very viscous oil out of that hall while it lay on the beach 
there in Oregon, I believe. And so----
    Chairman Baird. Right off our coast actually.
    Admiral Watson. Yes, sir. So these were some of the 
outcomes of R&D, and I am sure a lot of that was due to the 
fund.
    Chairman Baird. But there may be a need to revisit that 
issue of whether or not that fund is still adequately 
contributing to ongoing research, apparently for a timed 
function and there is--it at least seems to be a bit of a 
question mark about whether or not a sufficient portion of that 
fund is actually going to fund the research. Is that a fair 
portrayal?
    Dr. Venosa.
    Dr. Venosa. Yes. I think it is. I think the resources--I 
don't want to sound like a scientist who is begging for money, 
but I think that----
    Chairman Baird. That never happens before this committee.
    Dr. Venosa. No, no. We never do that, but the resources--my 
budget has been about a half a million dollars for the--per 
year for the last 20 years. We have got, as I said, we have got 
a lot of publications out of it, but half a million dollars 
doesn't go very far.
    And, in fact, a lab study that 20, 15 years ago cost 60 to 
$80,000 now costs 130. So really the budget has actually gone 
down.
    Chairman Baird. Yes. I guess----
    Dr. Venosa. Due to inflation.
    Chairman Baird.--I want to close out with really two 
questions and maybe we may pursue them later if we have another 
round.
    One is the degree to which folks like Admiral Watson, Mr. 
Edinger, who are out there on the ground, more likely in the 
water I should say, trying to clean up the spills. You have 
each given some examples, and there is mention by Mr. Helton 
about dealing with cold water situations.
    But one of my fundamental questions would be to what extent 
and through what mechanisms does the real world practitioner 
who says, gosh, if only we had a way to see where the darn oil 
is in the fog or at night or to suck up viscous material or to 
deal with cold water, to what extent does that drive the 
research? Where is that nexus? That is one question.
    And then related to that is let us suppose you do drive the 
research, where is the financial incentive? This strikes me as 
a little bit like the problem we have with funding for 
pharmaceuticals to deal with rare disease outbreaks. All the 
incentives are in the wrong direction. Why should a drug 
company invest a significant amount of money for something that 
may never get to be used? If they do use it, they could get 
sued, et cetera.
    And separately I worked on that issue, but here where is 
the incentive? Let us suppose Mr. Edinger says, ``Look. I have 
got to get something that helps me identify where oil is at 
night.'' Where is the financial incentive for some company to 
invest in producing the products that allow you to do that? It 
is similar, I suppose, to the need for a more viscous pump. But 
that would be a second question. We don't have time to deal 
with it in this round, but I hope maybe we can get to that.
    I will recognize Mr. Inglis for five minutes at this point.

              Possible Improvements to Existing Mechanisms

    Mr. Inglis. Thank you, Mr. Chairman.
    The Chairman was just asking the question about the Oil 
Pollution Act of 1990, and the Interagency Coordinating 
Committee. I wonder if anybody wants to comment on how it could 
be improved. I assume things are always subject to improvement, 
and if we approach it in a process way and say, you know, what 
could be really better about what was called for in that Act 
and driving things along.
    Any thoughts about what you would like to see if you had a 
wish list of things that you could ask Congress and Congress 
would do it? What would that be?
    Mr. Helton. Well, we have a number of areas that we believe 
would be fruitful for research. I think the question is not 
necessarily the structure of the organizational committee as 
much as what resources that they have to take under--take new 
research, especially the areas I mentioned. There is a lot of 
new technologies that are available that we are not applying 
towards oil spills, we are not using some of the remote 
sensing, we are not using some of the unmanned aerial vehicles, 
things like that that are out there in industry now in other 
areas. Some of those areas need more research on how they can 
applied.
    On the question of the nexus on research and how we make 
sure that research is appropriate, that the people in the field 
actually get their ideas to the scientists, the structure of 
the research that NOAA has done with the University of New 
Hampshire is actually intentionally designed that way. Every 
research project has an assigned field responder who is--who 
has expertise in that area from a field perspective to make 
sure that the research is providing information that is useful 
to the responders.
    Mr. Inglis. Anyone else want to comment on that?
    Dr. Venosa. EPA gets its research ideas so to speak from 
interactions with the program office, the Office of Emergency 
Management, because they deal with the on-scene coordinators on 
a daily basis, and they know what the--where the needs for 
inland oil spills are. And so I have an almost daily discussion 
with the OEM folks about research and what can we do to solve 
the problems that the on-scene coordinators are facing within 
our agency. And that is basically where we get our ideas for 
research, through interactions with the program office and the 
on-scene coordinators.
    The Admiral talked about the Interagency Coordinating 
Committee, and I would like to say that I think it has worked--
in fact, one of the ways that we do interact, and he didn't 
mention is through the Science and Technology Committee, which 
is a committee of the National Response Team. And the people 
who are--compose the International or the Interagency 
Coordinating Committee are also on that Science and Technology 
Committee. We meet on a monthly basis through conference call. 
We talk, always talk about the research that we are doing.
    So we do communicate, we do collaborate, and we do 
coordinate. Perhaps we haven't been as good about reporting to 
Congress as much as we should, but at least we do do what we 
are supposed to be doing in terms of the directive.
    Admiral Watson. I would like to echo Dr. Venosa. I think 
that the system is working pretty good as far as having an ear 
toward the responder. I mean, the--both the Coast Guard and the 
EPA are the responders, and we are certainly very involved with 
that interagency committee and feeding those needs directly to 
the research facilities and the researchers.
    I think one thing that--and you touched on it, Chairman 
Baird, you know, maybe coming up with some better incentives 
for companies for the private sector to be involved. Now, we 
try to stay involved and actually I am very complimentary about 
a number of privately-funded research activities, but that is a 
little less organized. It is not maybe as robust as it could be 
or as--led as well as it might be by the federal agencies on 
this committee.
    There is also the international efforts, and, again, we try 
to be as involved as possible. The United States is seen as the 
world leader, and maybe this committee could have even a better 
leadership role if it was a little emphasis there.
    Mr. Edinger. Ranking Member, regarding participation by 
State, local entities, you know, certainly we want to continue 
to participate in this process. In California we don't 
necessarily do the research, but we apply the research that is 
done or funded by the Federal Government. So research certainly 
is very important to us.
    As far as financial incentive, I think we could look once 
again to the Cosco Busan, which as Representative Woolsey said, 
may be not that large of a size of a spill but certainly 
significant in the response. Response costs are going to end up 
somewhere between 1,000 and $2,000 per gallon for a product 
spilled. So there is a financial incentive out there.
    In addition, in California we have a regulatory structure 
that requires best achievable technology by the industry. The 
industry is required to use what is the best achievable 
technology, similar to what the Federal Government does. We 
are--have a work group together that includes Federal 
Government, includes State, includes non-governmental 
organizations looking at the different technologies and 
deciding which is the best achievable technology.
    But there is a financial incentive certainly for companies 
to develop new technologies and for the industry to use those 
during an event.
    Mr. Inglis. Thank you. Thank you, Mr. Chairman.
    Chairman Baird. Thank you. Mr. Lujan.

                             Inland Spills

    Mr. Lujan. Mr. Chairman, thank you very much. Dr. Venosa, 
if I could begin with something that you said in your opening 
remarks about some of the concerns that you did have with 
support that may be needed to also address inland spills, I 
know that the overlying reason that we are here is some of the 
concerns that have occurred on our coast, but you brought up a 
point there that cause my interest. And if you could talk about 
that a little bit more.
    And then to hear from each of you to your experiences or 
how maybe Mr. Helton or Admiral Watson or Mr. Edinger with your 
experience in California responsibilities both coastal and 
inland, on what can be learned from there so that way we are 
making sure that we are looking at the entire country for 
preparedness here.
    Dr. Venosa. Thank you. Yeah. I think in the area of inland 
spills, and this is my opinion, but I think and I said that we 
are probably going to have more spills rather than fewer as we 
change our emphasis in the future to biofuels development. I 
think you are going to--since all these biofuels are going to 
be transported by pipeline, and they are going to be stored in 
above-ground storage tanks, I think you are going to see that 
those pipelines do corrode, and so do the above-ground storage 
tanks. You are going to see more and more of these spills as we 
increase the volume production of biofuels in the future.
    And so I think we need to start conducting research to try 
to--how do we deal with those new spills? I mean, these are new 
things to us. We have been doing research for 10 years on 
vegetable oils. We know a lot about vegetable oils and how they 
persist in the environment and how they are treated 
biologically, but we don't know enough yet. We have--and with 
biofuels they are slightly different from the vegetable oil 
feedstocks. We have--we don't know that much about them at all 
yet. Nor do we know anything about animal fats.
    I think you are going to see a lot more of those being 
produced as well as being spilled.
    Mr. Helton. Thank you, Mr. Lujan. My agency's primary focus 
is ocean and coastal resources, but we do support inland spills 
and work in the Great Lakes as well. We have all the inland 
rivers we provide support on. This is the--next week is the 
10th anniversary of the Olympic Pipeline spill in Washington 
State, which is one of the spills I worked on that was 250,000 
gallons of gasoline that was spilled into a coastal stream and 
caught fire and caused several fatalities as well as destroying 
a city park.
    And so NOAA is involved in those level incidents as well 
and certainly it is something we try to remind our audience 
that we are not just talking about the large tanker accidents, 
that these can happen at any community, and we need to be 
prepared.
    Admiral Watson. One of the things I would like to mention 
is that the Coast Guard's National Strike Force is actually a 
national strike force that serves both the EPA federal on-scene 
coordinators as well as the Coast Guard federal on-scene 
coordinators who are responsible for the coastal spills.
    So one of the things that happens almost without thinking 
is that all of the experiences and lessons learned from that 
team are shared throughout the country. They are deployed from 
three different locations, and they work for both EPA and Coast 
Guard, so you have got some real synergies going back and 
forth, even though EPA's focus is inland and normally fresh 
water.
    There are, like you presumed, lessons learned. We do have 
some pipeline, some refineries, some chemical facilities in the 
coastal area that maybe are at lower numbers in terms of, you 
know, their numbers in the coastal zone, but when they have an 
incident, it quite often is a big incident, and we are glad to 
bring that knowledge and experience from the responses that our 
strike team has had working for EPA coordinators inland.
    Mr. Edinger. My office has responsibility, not just in the 
marine environment, but also the inland environment in 
California. We respond to petroleum oil spills in the inland 
environment. I could say without hesitation that we have more 
oil spills in the inland environment than we do in the marine 
environment. One of the differences normally is the marine 
environment is an open system, maybe much more difficult to 
corral than it is in the inland environment, but this year 
quantities and numbers of spills are much greater in the inland 
environment.
    As I addressed in the opening statement, you know, booming 
systems for rapid, high-velocity areas like inland areas, 
rivers and streams, you know, having things that are easily 
deployable is something I think we still need some work and 
research on that, certainly some of the research that is being 
looked at in updating would help to address, I hope.
    Mr. Lujan. I would like to know if there is something that 
we may be able to explore, understanding that there may be many 
more inland incidents but truly understanding when we talk 
about devastation when it comes to quantities how that may 
impact our oceans as well. Not to say that there is not 
devastation from one of these accidents occurring inland. We 
need to make sure as well that we are looking at this. As we 
lean from a technological perspective with arming our Coast 
Guard or first responders with the resources they need to 
adequately respond, we need to look to some of our laboratories 
with some of their expertise as well in being able to not only 
model these situations but in some of their homeland 
preparedness techniques, which may lend to some support in the 
specific area.
    Thank you very much, Mr. Chairman, and thank you, Ms. 
Woolsey, for bringing this forward.
    Chairman Baird. Excellent point, Mr. Lujan. It was, indeed, 
10 years ago that we had the terrible accident up in 
Bellingham. My colleague, Rick Larson, led the effort to fix 
that, and I will never forget the testimony of the families who 
lost children in that extraordinary explosion. Hundreds of 
thousands of gallons of gasoline ignited in one moment, and it 
devastated the community and killed three innocent people.
    And so it is a very, very good point that this is not just 
a marine thing that happens offshore.
    Ms. Woolsey.

          Containment Booms and University-Agency Cooperation

    Ms. Woolsey. Thank you, Mr. Chairman, and H.R. 2693 is not 
just a marine bill. It is an oil spill bill, in both prevention 
and cleanup.
    Mr. Edinger, thank you for being a boots on the ground 
example to us. I mean, you are the great expert that we need to 
hear from because you were really right there. And you 
mentioned that the failure of containment booms when the 
currents exceed that certain speed, I think it is three-fourths 
of a knot, that this makes it really difficult and particularly 
for protecting environmentally-sensitive areas.
    So knowing that and knowing that we need to do something 
about that, how do you go about and who do you give your 
feedback to. How does the process begin for you to get somebody 
to invent something that will work better?
    Mr. Edinger. Well, once again, Representative Woolsey, I 
would like to thank you for inviting me here and as a former 
resident of your District, I do appreciate all that you do.
    Ms. Woolsey. It is a nice District, isn't it?
    Mr. Edinger. It is a great District. It is a great 
District.
    As far as--there are incentives out there for the market 
environment. Regarding what we do now in protecting areas where 
we don't have the right tools we develop plans to use what is 
existing, what is out there right now. As an example, the Cosco 
Busan, we had difficulty with the Bolinas Lagoon, which I 
believe is in your district.
    Ms. Woolsey. It certainly is.
    Mr. Edinger. The Bolinas Lagoon is a high-energy area. You 
have waves coming in, you have currents going up to five, 
sometimes six knots. We ended up having two very complex 
booming systems to try and keep oil out of that environment, 
but ultimately, that is very difficult. It is very difficult 
when you have limited resources as far as response 
capabilities, and quite frankly, often those technologies fail. 
There is a failure.
    As far as who it is that we try and get to create these new 
systems, you know, unfortunately, we deal with what is in 
place. There is not a mechanism certainly for us to go out and 
say, you, here is a grant from the State of California to 
develop that. Really we rely on the Federal Government and some 
of the research that goes on with the agencies. Also with the 
Minerals Management Service.
    Ms. Woolsey. Uh-huh. Well, thank you. Because you are the 
four agents including Mineral Management Services that my bill 
will be focusing on. What it does it is streamlines from 17 
agencies to the four of you to ensure that we don't have this 
so dissipated that we don't get anything done.
    But you said that you had conference calls, Dr. Venosa. Do 
you have all 17 agencies on those conference calls, or is it 
the doers that are right here at the table?
    Dr. Venosa. It is mostly the doers. I mean, we have, gee 
whiz, probably half a dozen to eight people who call in every 
month and talk about the research that we are doing. So----
    Ms. Woolsey. Uh-huh.
    Dr. Venosa.--it is certainly not all 14 or 16 agencies that 
are named in the bill.
    Ms. Woolsey. How do you get in touch with the universities, 
I mean, that we can apply for these grants in my bill to do the 
research and build the booms we designed? Somebody, I guess it 
would be a mechanical engineering group or something designing 
the booms we need. Who is talking to who? That is what I am 
trying to get to right here.
    Dr. Venosa. Well, we do--the agencies do talk to each 
other. We do. I mean, like we say every month, NOAA does it a 
little bit differently from the way we do it. NOAA has their 
CRRC, and they have their annual peer review request for 
proposals.
    Ms. Woolsey. Uh-huh.
    Dr. Venosa. We also have--we have a competitive contract 
that we have in Cincinnati with the university----
    Ms. Woolsey. Uh-huh.
    Dr. Venosa.--and we do a lot of research with that 
university both in house, among our own people, with people 
from the university who help us, as well as extramurally with 
that university.
    Ms. Woolsey. And you are funding that project at the 
university?
    Dr. Venosa. Yes. Our--the monies that EPA gets, we funnel--
--
    Ms. Woolsey. Uh-huh.
    Dr. Venosa.--we compete some of it.
    Ms. Woolsey. Uh-huh. Uh-huh.
    Dr. Venosa. We--some of it goes to our LOE contract with 
that university, the University of Cincinnati, and some of it 
we do ourselves in house. We have in-house capabilities in not 
only our lab but other labs throughout the country.
    Ms. Woolsey. And how do you get feedback on whether or not 
these programs are working once they are out in the field?
    Dr. Venosa. Well, everything that we do is peer reviewed--
--
    Ms. Woolsey. Uh-huh.
    Dr. Venosa.--you know, and we all attend the same 
conferences. The oil spill community, research community is 
very small. We all know each other, and we get, we meet on a 
monthly basis, and we get together annually at various 
conferences. We know what is going on. We all know----
    Ms. Woolsey. So then how come we didn't have booms that 
would work in anything beyond three-fourths knots? I mean, that 
is pretty still waters, isn't it, up until there?
    Admiral Watson. Well, there are booms that have been 
developed by research and developments for fast water, and 
there is also manuals that have been developed to give to the 
responders, and the--I guess the challenge is to having the 
right resources at the right place at the right time. And I 
don't know the specific circumstances of where these things 
were for the Cosco Busan but, you know, the weather is 
something you can't predict. I guess there is an expectation 
for fog out there in the San Francisco Bay obviously, and there 
is obviously rivers with a lot of potential for oil spills 
where you would pre-stage booms that are designed specifically 
for fast water recoveries.
    But sometimes you have a spill that occurs in low 
visibility that is in a place that usually has low visibility 
or in fast water that maybe you were expecting a different type 
of a spill. We have to continue to get the mostly private 
response organizations, the oil spill response organizations, 
to produce and acquire the technologies that the R&D community 
develops.
    Ms. Woolsey. Okay. Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Ms. Woolsey.
    Mr. Davis.

                            Spill Prevention

    Mr. Davis. I watched and observed the Exxon Valdez spill, 
others that we have had in our country and along our streams. 
Observed it one time, a small pond on a farm where domestic oil 
wells were being drilled and stored in a tank and the tank 
erupted to a leak, went into the actual holding pond, and for 
somehow it leaked down through the soil and got into some 
springs and the pond ultimately had to be dammed off with 
roping that you use and eventually burned.
    So I am somewhat aware as I look at the past and observe 
the damage that oil spills have had. And one of--I think Dr. 
Venosa. Am I saying that right?
    Dr. Venosa. Venosa.
    Mr. Davis. Venosa.
    Dr. Venosa. Yeah.
    Mr. Davis. You have to forgive me. I am from Tennessee, 
from the mountains of Tennessee, I guess some folks would say, 
but I know you made a comment that as we engage more in 
alternative fuels, perhaps maybe the piping underground of 
ethanol, that we could perhaps see more corrosion.
    I think that is a long way off to be honest with you. We 
have got to grow an awful lot of switchgrass to get that much 
to where it would demand us maybe 10 or 15 percent of the uses 
to start putting pipes in. So I think our efforts to control 
spills that we may have from oil is perhaps our biggest 
challenge.
    If you were to compare the safety today of transporting 
oil, are we using more and more, eight billion barrels a year 
that we use in this country alone? If you were to compare the 
safety record that we have today, either the four of you or all 
the four of you, compared to what we had a decade ago and two 
decades or three decades ago, how would you compare the safety 
records today? Do you think that we have adequate, in-place 
rules and regulations that would take us to the level of almost 
perfection in safety?
    Either one. What do we have to do to be sure we get to the 
point to where we have 100 percent certainty we don't have a 
spill?
    Mr. Helton. I would say that the review of the data on the 
recurrence of spills is--there has been great success since the 
passage of OPA 90 and the reduction of spills has been 
significant. The problem is that spills, there is still that 
chance of a spill happening. We haven't safeguarded the system 
completely, so we still have to have preparedness but overall 
the system is much--much less oil is being spilled today than 
was being spilled in pre-OPA period.
    Dr. Venosa. Nothing is 100 percent. We will never, ever be 
free of oil spills or any kind of chemical spills for that 
matter. I mean, we can have the best technology in the world, 
and we probably do right now, and with double-hulled vessels 
and all that kind of thing, but you are going to always have 
weather accidents that we can't--hurricanes, you know, the 
Murphy oil spill in Louisiana. That was caused by a level five 
hurricane.
    I mean, there is not much you can do about things like 
that. We can try to do as--the best science that we can, and we 
are doing the best science that we can right now, and I think 
we have, as Doug said, we have come a long way in improving our 
capabilities of responding to spills, but we will never be 100 
percent able to prevent them.
    Mr. Davis. Anyone else?
    Admiral Watson. I would just like to comment because I have 
spent a large part of my career on the prevention side, which 
is the point of your question here, as opposed to the response 
side, and we have implemented regulations for double bottoms 
and electronic equipment to improve navigation. I mean, just on 
the ship construction side. I think we are to the point where 
accidents are typically caused by human factors, at least in 
ships' navigating. There is probably some more work that could 
be done as far as engineering on some of the shore facilities 
that Dr. Venosa mentioned.
    But there is still work going on in that area. I can tell 
you particularly in the area of human factors and regulation of 
vessels. For example, the Congress has authorized the Coast 
Guard to have an inspection regime for towing vessels. Most of 
the 7,000 towing vessels in this country are currently un-
inspected, and so we were provided the resources just in this 
fiscal year to begin building an inspection program, and we 
hope to have the proposed rules out for that inspection regime 
very soon.
    And there are, you know, there is other types of un-
inspected activities that I think we could address in the 
maritime, and yet I think we can look back with a great degree 
of satisfaction in where--how far we have come just in my 
career.
    So it is never good to pat yourself on the back too much, 
but it is nice to take some credit.
    Mr. Edinger. I would like to echo what Admiral Watson said 
that we have come a long way. The number of spills along our 
coastline has gone down. The amount spilled has gone down, but 
I still think if we look at the Cosco Busan as an example, that 
was a vessel vision, and we could look at the investigation and 
confirm that the bridge did not move. There was--they collided 
with a fixed object, which means that we will always have the 
potential for accidents where there is humans involved.
    As Dr. Venosa also mentioned, you know, weather involved, a 
large weather event will cause spills. So we will always have 
spills unfortunately. The best thing we can do, though, is be 
as prepared as possible with the best technologies available.
    Mr. Davis. I asked the question for a reason. As you look 
at the huge increase in our imports, whether it be by land or 
from Canada or Mexico, a great percentage of our crude oil that 
is shipped into this country comes from this hemisphere, not as 
some folks would believe from the Middle East. It really comes 
from our hemisphere. But as you look at that large volume, I am 
impressed that we haven't had much, much greater spills than we 
have had, because not only are we importing 60 some percent of 
the crude oil that we consume, that 60 something percent is a 
huge number increase in barrels from the last 30 years of what 
we used to bring in.
    So I applaud the efforts of those, of you that have been 
involved in safety of those, enforcement, and others and 
continue to do equal or better job.
    Thanks for being here today.
    Chairman Baird. Ms. Edwards.

                          Scientific Modeling

    Ms. Edwards. Thank you, Mr. Chairman, and thank you for all 
your testimony.
    I just have one question, and I don't know a lot about 
this. I do recall visiting with my son on a vacation the site 
of the Exxon Valdez spill and several years after the spill and 
seeing the continued devastation, and so I am curious about it. 
I wonder, Mr. Helton, in your testimony you talked about the 
research gaps related to your ability to do effective modeling, 
and so I wonder if you could explore that with us just a little 
bit more and particularly with respect to being able to 
simulate or use intelligent design to simulate different 
materials and quantities and densities, weather conditions, all 
of the factors that you described in your testimony.
    And then your ability also to look at modeling in terms of 
impacts on ecosystems and communities. And I think it would be 
helpful for us if you were able to explore with a little bit 
more depth about where those research gaps are and what it is 
that this committee could consider to really fill them.
    Mr. Helton. Thank you, Congresswoman Edwards. That is a 
very excellent question because we struggle with modeling 
questions all the time. There is a number of kinds of models 
that we use in oil spill response and restoration. The ones 
that come to mind immediately are the models that we use to 
predict how the oil will behave once it is spilled in the 
water. The oil is going to behave--move laterally with currents 
and winds. It is also going to move into the atmosphere through 
evaporation, and it will also move into the water through 
disollution and dispersion.
    Most of the models that we have focus on the surface layer, 
how the oil will move. We have less rigorous models predicting 
how the oil will move once it is dissolved into the water 
column. So that is an area of research, and we are trying to 
fill those gaps now.
    But there is a whole other suite of models that we use for 
biological effects, trying to figure out what is the effects on 
a salmon run or a shellfish population after it has been 
exposed to an oil spill. So those--we have models that will 
help us predict the severity of exposure, the longevity of that 
exposure, but it could be much more rigorous. We use them in a 
predictive model to help us understand how to respond and how 
to improve our responses, but we have a long way to go to be 
certain and confident in those.
    And you mentioned the Exxon Valdez and the lingering oil 
question is still an issue 20 years later, and one of the 
questions is how well can we model the oil once it has been 
entrained in those shoreline sediments and then being 
remobilized by storms and biotic activities.
    So that is an area of research. The models that we have to 
predict how oil moves on the sea surface are not well 
calibrated for arctic spills. Once you throw in the variable of 
having broken ice conditions or even complete ice cover, we 
have little confidence in how that oil will behave and move 
because of that--the barrier that the floating ice causes.
    Ms. Edwards. Is that also true for modeling the rapid 
changes that we are seeing related to climate affect your 
ability to model what would happen with a spill, you know, as 
we are in the throes of experiencing climate change?
    Mr. Helton. The climate change variable is a whole other 
additional variable when you are--when we are trying to predict 
the effects of a biological impact on a resource. For example, 
take a salmon run in Alaska. It may be changing because of 
climate independent of a spill and then adding a spill event on 
top of that creates a whole other level of complexity that 
happens at very different timescales, because the spill is 
having effects on the days to months to years level, and the 
climate effects are, you know, years to decades level. So it is 
a very complicated additional scenario to consider.
    Ms. Edwards. And are there questions that you are asking 
now say 20 years down the line from the Exxon Valdez spill that 
should be instructive in terms of predicting the long-term 
impacts of an oil spill?
    Mr. Helton. We try to learn from every spill that we go to, 
and the Exxon Valdez has been fairly well studied in the long 
run. Several NOAA laboratories, EPA has done long-term 
research, Exxon has done research on the recovery as well. 
There is still a lot of uncertainty and a lot of--lack of 
consensus about how long it will take for that residual oil to 
resolve itself and when the non-recovered resources will 
recover.
    And back to your previous question about climate change, 
one of the areas that we are particularly looking at that 
question is with very long-lived resources. Imagine a coral 
reef that is affected by an oil spill. So then you have very 
sensitive resources that are very sensitive to both oil and 
climate, and we know that they are already in decline because 
of climate impacts. So those would obviously be areas where 
those kinds of very sensitive resources would be the focus of 
additional research.
    Ms. Edwards. Thank you, Mr. Chairman, and I know we can't 
study everything, and so sometimes it helps to have kind of a 
priority list of those things that need to be put at the top. 
Thank you.
    Chairman Baird. Thank you, Ms. Edwards.
    I have just a few follow-up questions, then we may--then if 
Ms. Woolsey has any, we may finish with that.

                      Funding for Real-World Tools

    Ms. Woolsey, I was looking again at the text of the bill, 
and I think it is an outstanding bill. As I heard Mr. Edinger 
and the others, I still am concerned about this gap of where 
funding comes from to develop the real-world materials needed 
to deal with different situations. It is rather shocking, 
really. I mean, if I look at the waterways I am familiar with, 
there is not many waterways that have less than one knot 
current. When you look at the Puget Sound, the narrows of the 
Puget Sound is nearly eight-knot current at times in high ebb, 
and most rivers are going to have easily one-knot current.
    And so the reason I say that if one of our best available 
technologies in booming is not able to meet the most likely 
scenarios that it is maybe to encounter, one says why hasn't 
something better been done?
    And Ms. Woolsey, I would suggest there might be some merit 
to including economic research in the list of topics, and 
economic research I would suggest is worth considering is this. 
My hunch is the way many companies deal with the risk of oil 
spill is through insurance, and they deal with it insurance, 
and they basically buy off the risk. But buying off the risk 
probably doesn't incentivize the creation of new technologies 
to actually reduce the impact of the risk.
    I mean, somebody would be smart enough to do the calculus 
and say, what is the probability, it is low of an incident, 
what is the cost relative to the cost of insurance, et cetera, 
and then so where is the financial incentive? I am not saying 
you should impose some draconian penalty structure, but my 
guess would be that if that is, in fact, how risk is 
capitalized, you are not going to have incentive to actually 
create the new tools, because there is going to be R&D costs, 
manufacturing costs, a low probability of use, et cetera, et 
cetera.
    And so you may want to look at just sort of a regulatory 
economic structure that actually may impede rather than enhance 
development of this.
    Another thing that strikes me----
    Ms. Woolsey. If the gentleman would yield.
    Chairman Baird. Please. I would be happy to.
    Ms. Woolsey. Then when we have a hearing, I mean, have a 
markup, we can add that in as----
    Chairman Baird. If folks have some suggestions, I would 
sure welcome that, because my hunch is that is part of what is 
going on here. You know, if somebody said, gosh, I have got a 
great idea for a piece of equipment to contain or recover oil 
from oil spills, I would interested in the economics of whether 
it makes sense to produce that. Maybe it is there. I don't 
know, you know, and given that we are apparently better at 
reducing the frequency of them, that makes the economics 
somewhat paradoxically less beneficial.

               Research Efforts as Proportionate to Need

    I am also struck by the chart I think provided with Admiral 
Watson's testimony. As I look at that chart the major spills in 
'05, and '06, you can't tell necessarily from '04, it is on 
page five, came actually from ground sources. We tend to think 
of Exxon Valdez, Cosco, and much of our discussion today has 
been focused on that, but if we look at--and maybe I am 
misinterpreting this, net volume by source in the given years, 
they came from--you look at the Hurricane Katrina damages. 
People often say, oh, there were no oil spills in Katrina. 
There was a heck of a lot of oil spilled related to Katrina, 
but as I read it, I may be wrong here, much of that came from 
damages to oil storage facilities and a barge that ran aground 
on a devastated, a wrecked platform. But the bulk of that graph 
is oil storage facilities. In '06, 1.6 million gallons from 
damaged refineries, storm water setting tank, again, during a 
several storm.
    Now, so much of OPA 90 was focused on at-sea spills, maybe 
we ought to ask ourselves to what extent--following up on Ms. 
Edwards' observation--should our research focus be 
proportionate to the actual causes at least as observed in 
recent years?
    Does anyone care to comment on that?
    Admiral Watson. Yes, sir, I will just comment briefly and 
then maybe Dr. Venosa, but, yeah. What you are seeing here is--
are large storage tanks that are affected by large storms. I 
think, you know, one of the, I mean, obviously huge amounts of 
oil is lost in one of these incidents, but there are berms 
around these facilities and I mean, there are regulations for 
this situation that mitigate even worse damage to the 
environment and----
    Chairman Baird. Unless a flood overtakes the berm.
    Admiral Watson. Well, and that has happened. Yes, sir. So, 
you know, it is a tough problem. Do you invest a huge amount of 
money to make a storage tank hurricane proof----
    Chairman Baird. If you build it in a hurricane zone.
    Admiral Watson. Right. Maybe that is what you have to do. 
Or do you do--you invest more in the berming system and the 
consequence management side. So----

                       Oil Spills and Coral Reefs

    Chairman Baird. Yes. I just think we want to look at that, 
and that relates also to Mr. Lujan's earlier question about, 
you know, non-maritime-related events.
    As my colleagues know, I am very passionate about what is 
happening to our oceans and corals especially. It is my 
understanding that if, for example, you were to use 
dispersants, you could actually kill the coral, that the 
dispersants kill the coral. And so there is a generic question 
of are we spending enough attention on issues of coral-type 
environments and impact of spills and the remediation of 
spills.
    And also to what extent is this worldwide, is this 
knowledge and technology disseminated worldwide? If you look at 
the coral triangle and for example. Do we know what we are 
doing when we are dealing with spills in the coral reef areas, 
and to what extent does the rest of the world know and have the 
technology to deal with that?
    Mr. Helton. Well, the subject of coral and oil spills could 
be a whole hearing in itself. It is something that NOAA has 
paid a lot of attention to, and we have a coral reef 
conservation program. One of the things that that program 
helped fund was research that was oil spill response guidelines 
for coral environments, and we would be happy to provide a copy 
of that manual to the Committee.
    It is a very complicated issue. We know that dispersants 
can sometimes cause more harm than good, and evaluating what 
those tradeoffs are is a major part of the research that we 
have been trying to move forward on.
    The idea of sharing that technology, the coral guide book 
that we prepared on oil spills was supposedly translated into 
Spanish to be available for the Caribbean region.\1\ I am not 
aware of it being shared beyond that, but it is certainly 
available for that kind of use. [See Appendix: Additional 
Material for the Record for a letter from Noel Turner 
concerning a clarification to this statement.]
---------------------------------------------------------------------------
    \1\ The coral guide book on oil spills has not been translated into 
Spanish. OR&R has translated four of its publications into Spanish, 
including: ``Open Water Oil Identification Job Aide for Aerial 
Observation,'' ``Shoreline Assessment Job Aide,'' ``Trajectory Analysis 
Handbook,'' and ``Characteristic Coastal Habitats: Choosing Spill 
Response Alternative.''
---------------------------------------------------------------------------
    Chairman Baird. Thank you. One final comment I will make 
and then recognize Mr. Inglis, if he has comments.
    My understanding is the Coast Guard spent about $20 million 
over the past 10 years on oil spill R&D. EPA spent 720,000 last 
year, I believe, and NOAA doesn't really have a line for this. 
Is that a correct understanding?
    Mr. Helton. That is correct. NOAA doesn't get a direct 
appropriation for oil spill R&D. We use base funds. Unlike some 
of the other agencies we don't have a line from the Oil Spill 
Liability Trust Fund. And as a point, I think the Interagency 
Coordinating Committee is a coordinator of research, but the 
Committee itself doesn't control any funds, any research 
priorities that they identify are then the responsibility of 
the individual agencies that have that authority and funding to 
move forward.
    Chairman Baird. Reminds me of the lesson I was taught as a 
little child. You clean up your mess but in this case nobody is 
paying for the broom.
    Mr. Inglis.

                      Useful Spin-off Technologies

    Mr. Inglis. I wonder if there have been any spin-off 
technologies here from the work that we have been doing into 
other kinds of applications, so, you know, for example, 
drilling for geothermal resources resulted in better drilling 
techniques for the oil industry. I wonder--do you know of any 
spin-offs that have occurred here where other applications have 
been found from the technology that we are trying to develop to 
control oil and water?
    Mr. Helton. I think that the--we have borrowed technologies 
from other industries. I am not aware of any other industries 
borrowing our technologies. Is that the question?
    Mr. Inglis. Yeah. That was the question. I got to tell you 
what the Chairman said. Better salad dressing could be part of 
what comes out of this, you know. Keeping things mixed, I 
guess, that oil and water mixture.
    Mr. Helton. I was just passed a note that the medical 
community uses some of the sorbent technology. So----
    Mr. Inglis. Interesting. Yes. How about--one other thing 
for the Admiral. Do you own or have control over unmanned 
vehicles, reconnaissance vehicles, or if you needed one, where 
would you go to get it? You know, everybody always wants their 
own, of course, and maybe you have your own, but if you don't 
have your own, can you go get them somewhere else?
    Admiral Watson. Yes, sir. We, of course, are a member of 
the Armed Services, so we are working very closely with the Air 
Force and the Northern Command for Homeland Security, and then 
we are very involved with the project that the border, Customs 
and Border Protection have. They owned a predator, and they 
have been testing those for the border, and we are working on a 
marinize, which means for the maritime environment, a version 
of that. So I don't know exactly where this R&D acquisition 
plan is going to end up, but my guess is that there will be a 
cross use of these assets.
    And, you know, just almost going back to your last 
question, I can't answer exactly how oil spill stuff has been 
used elsewhere, but I can tell you that a lot of the tools that 
we have developed for the various Coast Guard missions, whether 
it is search and rescue or whether it is Homeland Security or 
whether it is fisheries patrols, oftentimes are handy in an oil 
spill event as well. Some of the surveillance equipment, you 
mentioned unmanned aerial surveillance vehicles. These are 
things that will be able to carry any sort of sensor equipment 
that can fit in there, and when we develop these things, we 
will--as we have for the last two decades, equip them to be 
able to be used in an oil spill or a chemical incident as well.
    Mr. Inglis. That is helpful, because, you know, I am aware 
of a municipality that wanted basically an armored personnel 
carrier, and they got it from Homeland Security, a Homeland 
Security grant. I was asking them, well, why don't we just call 
up the National Guard that has those assets. Can't ever reach 
them was the answer, and I said, well, maybe we could buy them 
a cell phone and then you could have two cell phones, two red 
cell phones, and if you ever need one of those armored 
personnel carriers in this city in South Carolina, perhaps we 
could use the red phones to call rather than having a multi-
million dollar piece of equipment now that we have paid for. So 
we have got two within two miles of each other.
    You know, so I hope that when we do this sort of thing with 
the, you know, figuring out how to track this oil, that we 
really can move assets seamlessly from the Air Force to the 
Coast Guard to get them assigned to a spill quickly. A bunch of 
red cell phones might be a good idea, you know, so we can make 
sure that we can get those.
    But really, it is--that is something that seriously look 
into is quickly deploying those assets so that we don't have, 
you know, this situation of waiting for the drone to come over 
and find where it is going because we can't get the asset 
there. It could become a very frustrating and damaging 
situation.
    So it sounds like good protocol to work on. What do you 
think? Making sure it can be deployed quickly.
    Thank you, Mr. Chairman.
    Chairman Baird. Ms. Woolsey, we have about 11 minutes, 50 
seconds until the vote, so you are recognized.
    Ms. Woolsey. Right, and we know that it is going to be 
about 25 minutes before that vote is over.
    Chairman Baird. No. Remember, we changed that policy.
    Ms. Woolsey. Oh, no, no, but we didn't. All right.

                     The Resource of Volunteer Aid

    Mr. Helton, you mentioned in your testimony about depending 
on how well local communities engage, and I believe engage in 
the cleanup and the response and all of that.
    I can tell you that during the Cosco Busan cleanup, my 
constituents were really frustrated. We had armies of 
volunteers that wanted to be down there on the beach cleaning 
up, cleaning the fowl that were coming in, you know, and trying 
to save their lives and all that. They were turned back because 
they weren't trained. So first of all, I need you to tell me 
what you meant by how well the communities engage.
    But there is something in my legislation that says 
extramural grants and it includes detecting or mitigating oil 
discharges. By helping volunteers, keeping them prepared and 
trained, would that be helpful in the mitigation of these 
disasters? Do you see it as that, or what did you mean by that?
    Mr. Helton. I had a very broad statement about engagement 
of local communities before, during, and after spills that 
would include the example that you raised of volunteers. What I 
was thinking of when I was drafting the testimony was the 
broader experiences from large spills like the Exxon Valdez, 
where some communities after the spill suffered very 
substantial social disruption from the influx of the response 
as well as the damage, the loss of their fisheries, loss of 
income.
    So especially in rural subsistence communities a spill can 
have very significant impacts to their economy and social 
structure, and a city like San Francisco, I don't think that it 
had that kind of impact, but it certainly had a social impact 
and essentially a double tragedy because people felt strongly 
about trying to prevent the spill and clean up the spill and 
then being denied the ability to help out. They were 
essentially injured twice.
    And so--and I am sure your office received thousands of 
calls from citizens about that.
    Ms. Woolsey. Yes, indeed.
    Mr. Helton. There is an effort through the National 
Response Committee to address how volunteers can be better 
used. There are a number of concerns about management of a 
cadre of volunteers that might change on a daily basis so we 
don't want to take away resources from the response to train 
1,000 people one day and then have a different 1,000 people the 
next day that have to be trained.
    But that is a major focus of the NRT Committee this year 
and perhaps the Coast Guard could address that.
    Ms. Woolsey. Okay. Admiral Watson.
    Admiral Watson. That is a function of an oil spill response 
quite often, is that you need to have some capacity to provide 
training, and as Mr. Helton said, it is particularly an issue 
when you have people whose subsistence depend on the water that 
has been affected. That has been something I have been involved 
with personally up in northern Washington coast where the Macaw 
Indian Tribe was affected by a significant oil spill, and the 
National Response Team is working on that issue. I think that 
was one of the lessons learned from the Cosco Busan spill, and 
it is going to have to be something that is really implemented 
at the local level.
    Ms. Woolsey. Right.
    Admiral Watson. But the guidelines and the targets for what 
we want to achieve in the long run will be established by the--
at the national level by the National Response Team.
    Ms. Woolsey. Right. Thank you for reminding me. The 
fishermen were out there in their boats. I mean, they would 
have done anything to help and realize they didn't have 
permission and didn't quite know what they were supposed to do.
    Mr. Edinger.
    Mr. Edinger. You brought up a great point about the Cosco 
Busan. The need for volunteers, you know, never before have we 
had volunteers that wanted to actually go up and clean oil up 
on California's beaches. We have seen people that will swim 
through oil to save wildlife, but we have never seen people 
that are willing to go out and actually clean up oil 
themselves.
    So we changed things. With the U.S. Coast Guard we have 
changed the Area Contingency Plan in the San Francisco Bay to 
address that, but kind of overarching also was the problem we 
had on the Cosco Busan was never getting in front of the story. 
The public was looking at that. It was Veterans' Day weekend. 
They were looking at the oil on the beaches, and they never 
really understood what was going on with the beaches. We never 
got in front of the story to say, you know, our efforts right 
now are on the water efforts, to get the water--the oil off of 
the water as soon as possible, and the sandy beaches where the 
oil was being deposited, that is actually a place where we 
could deal with it much better than anywhere else.
    So we were going through a progression in our spill 
response, but we never got that message out. We have developed 
tools, websites, use social media to get the message out for 
the next spill. We have also worked with the local volunteer 
centers to make sure that we have a mechanism in place to 
engage them should one of these events occur in the future.
    Ms. Woolsey. I believe that the people in that area would 
be willing to be certified, take training, even though they 
don't expect there ever to be another spill, just in case, so 
they would be prepared before the spill.
    Thank you, Mr. Chairman. Thank you very much for this 
hearing.
    Chairman Baird. Thank you, Ms. Woolsey, for introducing the 
legislation, and thanks to our witnesses and all the others who 
have participated today. I thank my colleague, Mr. Inglis, for 
his insightful questions, and with that the hearing stands 
adjourned. Thank you very much. Enjoy the day.
    It is customary to hold the record open for two weeks to 
allow for additional statements from Members and for answers to 
all the follow-up questions that the Committee may have asked 
the witnesses.
    [Whereupon, at 3:38 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Statement of Minerals Management Service
                       Department of the Interior
                              June 4, 2009
    The Minerals Management Service (MMS) is the bureau within the 
Department of the Interior responsible for the management of the 
Nation's renewable energy, oil, natural gas, and other mineral 
resources on the Outer Continental Shelf (OCS) as well as the energy 
and mineral revenues from the OCS and from federal onshore and American 
Indian lands. From the gasoline that powers our cars, the natural gas 
that heats our homes, and the benefits obtained through the 
disbursement of collected mineral revenues, the Nation and its citizens 
benefit from the efforts of the MMS.
    The MMS has jurisdiction over approximately 1.7 billion acres of 
the OCS, on which there are about 8,100 active oil and gas leases. We 
work with other federal agencies, State and local governments, 
industry, and academia to achieve a common objective to maintain high 
standards for safety and the environment and to meet national economic, 
security and energy policy goals. The OCS is a significant source of 
oil and natural gas for the Nation's energy supply, providing about 14 
percent of domestic natural gas production and 27 percent of domestic 
oil production.
    MMS recently published the final rule-making that provides the 
framework to grant leases, easements and rights of way for the orderly, 
safe, and environmentally responsible development of renewable energy 
resources on the OCS such as wind, wave, and ocean current.
    The MMS has a robust regulatory system designed to prevent 
accidents and oil spills associated with OCS oil and gas exploration 
and production. However, whenever oil is being handled--whether in 
tankers, pipelines, or production facilities, whether onshore or 
offshore, and whether in the U.S. or abroad--spills are a possibility. 
For that reason it is imperative that U.S. and international agencies 
work together to prepare for oil spills in a comprehensive manner. This 
preparation includes continued improvement in response technology and 
procedures.
    MMS is pleased to have the opportunity to present the Committee 
with information on the MMS Oil Spill Response Research Program and the 
operation of Ohmsett--The National Oil Spill Response Test Facility.

Overview

    For more than 25 years, the Minerals Management Service (MMS) has 
maintained a comprehensive, long-term research program to improve oil 
spill response technologies. The major focus of the program is to 
improve the knowledge, technologies and methodologies used for the 
detection, containment and cleanup of oil spills that may occur on the 
OCS and disseminate findings through a variety of public forums such as 
workshops, conferences, peer-reviewed publications and the Internet. 
The intent is to make this information widely available to oil spill 
response personnel and organizations world wide. The activities 
undertaken by the MMS oil spill response research (OSRR) program comply 
with the research and development provisions of Title VII in the Oil 
Pollution Act of 1990 (OPA 90).
    The OSRR program provides research leadership to improve the 
capabilities for detecting and responding to an oil spill in the marine 
environment. In the past decade the OSRR program has been making 
progress in developing technological advances to improve the ability to 
clean up oil spills in Arctic environments. This includes development 
of systems, equipment and methodologies that can be used in extremely 
cold temperatures and in broken ice conditions. These advancements have 
allowed oil and gas exploration and development activities to move 
forward in Arctic offshore environments and will produce real cost 
savings.
    The OSRR program is a cooperative effort bringing together funding 
and expertise from research partners in government agencies, industry, 
and the international community to collaborate on oil spill research 
and development (R&D) projects. The OSRR program operates through 
contracts with universities, government agencies and laboratories and 
private industry to assess safety-related technologies and to perform 
necessary applied research.
    Funding for the OSRR program activities is appropriated from the 
Oil Spill Liability Trust Fund (OSLTF). MMS plans and implements OSRR 
projects that have multiple phases in a step-wise approach over several 
years, enabling the MMS to secure cooperative funding from private 
industry as well as countries that have offshore regulatory programs. 
The MMS OSRR program monitors and capitalizes on the efforts of other 
agencies and industry whenever possible through active partnering. More 
than 40 percent of the OSRR projects are Joint Industry Projects, where 
MMS partners with other stakeholders to maximize research dollars.
    The MMS coordinates oil spill research closely with the National 
Oceanic and Atmospheric Administration (NOAA), the U.S. Coast Guard 
(USCG), and the Environmental Protection Agency (EPA) through 
participation on the National Response Team and on the Interagency 
Coordination Committee for Oil Pollution Research. This allows the MMS 
to foster collaborative research at the national and international 
level, optimize current and future research initiatives, minimize 
research duplication, and ensure that MMS's interests are addressed. 
Partnering has reinforced the MMS's oil spill response research and 
development and encouraged oil spill technology development efforts by 
academia and industry. The MMS has participated in the exchange of 
technological information with Canada, France, Germany, Japan, Norway 
and the United Kingdom through cooperative research projects, workshops 
and technical meetings.
    Information derived from the OSRR program is directly integrated 
into MMS's offshore operations and is used to make regulatory decisions 
pertaining to permitting and approving plans, safety and pollution 
inspections, enforcement actions, and training requirements. The MMS as 
well as US and foreign government agencies and organizations worldwide 
utilize the results from the OSRR program and Ohmsett in making 
planning, regulatory, and emergency response decisions. Current OSRR 
projects cover a wide spectrum of oil spill response issues and include 
laboratory, meso-scale and full-scale field experiments.
    Major topic areas include:

        --  Remote sensing and detection of spilled oil

        --  Physical and chemical properties of crude oil

        --  Mechanical containment and recovery

        --  Chemical treating agents and dispersants

        --  In situ burning

MMS Oil Spill Response Research

    Success from the MMS OSRR program comes from a step-wise research 
approach to solve specific research needs that includes formation of 
joint industry projects to expand the scope and leverage program funds. 
Many significant technical advances in oil spill response can be 
attributed to successful multi-phase research projects that involve 
scientists worldwide. Applied research and the development of response 
strategies traditionally involve a combination of laboratory small-
scale tests, meso-scale tank and basin experiments, and full-scale 
field trials. The MMS has used this approach to develop, initiate, and 
conduct more than 200 successful oil spill research projects.
    Once the MMS has identified a research need or data gap in spill 
response we initiate and conduct a scoping project to define the 
current state-of-the-art for this technology or methodology. The 
results from these scoping projects are used to develop a systematic 
approach required to successfully address the data need. Communicating 
the results from these projects to government agencies and private 
industry is the next step to build consensus on the future research 
direction. A carefully focused work plan or agenda encompassing a 
priority list of projects is developed. It is generally beyond the 
capabilities of any one organization to fund these projects in their 
entirety. International cooperation, including governmental and 
industry participants, is needed to make substantial progress in the 
most important research and development areas. Given the specialized 
nature and limited number of researchers actively working on oil spill 
response, it is essential to involve different centers of expertise on 
a global scale. The MMS has initiated many successful joint industry 
projects (national or international) to leverage our program funds and 
expand the scope of the project to develop innovative or new 
technological advancements to detect, contain, and cleanup oil spills 
in the marine environment.

Ohmsett--The National Oil Spill Response Test Facility
    The passage of the Oil Pollution Act of 1990 (OPA 90) significantly 
expanded MMS's role in oil spill research. Title VII of OPA 90 mandated 
the reactivation of Ohmsett--The National Oil Spill Response Test 
Facility located in Leonardo, NJ. The Interagency Coordinating 
Committee on Oil Pollution Research (created by OPA 90) delegated this 
responsibility to the MMS. Ohmsett is the only facility in the world 
where full-sized oil spill response equipment can be tested and 
training of first responders can be conducted with a variety of oils in 
a simulated marine environment under controlled conditions. The primary 
feature of Ohmsett is a large outdoor, above ground concrete test tank 
which measures 667 feet long (the approximate length of two football 
fields) by 65 feet wide, by 11 feet deep. It is filled with 2.6 million 
gallons of crystal clear salt water. Ohmsett is also the premier 
training site for spill response personnel from State and Federal 
Government agencies, private industry and foreign countries. This 
includes the U.S. Coast Guard Strike Team personnel. MMS now manages 
Ohmsett as part of its mandated requirements to ensure that the best 
and safest technologies are used in offshore oil and gas operations. On 
July 22, 2009, Ohmsett celebrated its 17th anniversary under MMS 
management and to date 24 countries have made use of the facility.
    The facility provides an environmentally safe place to conduct 
objective, independent testing of oil spill response equipment as well 
as training responders. Many of today's commercially available oil 
spill cleanup products and services have been tested at Ohmsett either 
as off-the-shelf commercially available equipment, or as equipment or 
technology still under development. In North America, a large portion 
of existing independent performance data and information on containment 
booms and skimmers has been obtained through testing at Ohmsett. The 
MMS has expanded the capabilities of Ohmsett to test all types of oil 
spill response equipment and techniques. The testing capabilities of 
Ohmsett were recently upgraded to provide a simulated Arctic 
environment for cold water testing and training. This capability will 
allow Ohmsett to remain operational year round, offering testing, 
training and research. We now have the ability to test and evaluate 
fire resistant containment booms using an air-injected propane burner 
system that realistically simulates in situ burning at sea. We have 
added the capability to conduct effectiveness testing on a variety of 
chemical treating agents, dispersants, emulsion breakers, and sorbent 
products.
    The use of chemical dispersants is another important option in oil 
spill response. The Ohmsett facility is a world leader in realistic 
dispersant effectiveness testing through the design and development of 
a calibrated, referenced and realistic test protocol and subsequent 
testing under cold and temperate conditions using fresh and weathered 
crude and fuel oils. The National Research Council strongly supported 
the use of wave tank testing in their recent review of chemical 
dispersants. Ohmsett is the world's largest wave-tank complex presently 
conducting such research, and is the logical venue for bridging the gap 
between laboratory and field testing.
    The Ohmsett facility is developing the capability to conduct 
independent and objective performance testing of emerging marine 
renewable energy devices. The objective is to provide as realistic 
conditions in the model scale as possible including realistic 
parameters for wave heights, wave periods, and directional spreading 
water depth. The program includes the development of standard test 
protocols both nationally and internationally.
    Ohmsett is an integral part of the MMS oil spill research program 
and is essential for fulfilling the agency's regulatory 
responsibilities under OPA 90. The facility directly supports MMS's 
mission of ensuring safe and environmentally sound oil and gas 
development on the OCS. Ohmsett is not only an important component of 
the MMS oil spill research, it is also a national asset where 
government agencies, private industry and academia can conduct full-
scale oil spill research and development programs in a controlled 
environment with real oil. Ohmsett allows research, testing and 
evaluation of equipment, systems and methodologies, and responder 
training to take place in a controlled environment.

Significant Accomplishments of the MMS Oil Spill Response Research 
                    Program

    Following are some examples of the significant accomplishments of 
the MMS OSRR Program and how these new technological advances are 
currently being operationally used worldwide to respond to oil spills 
in the marine environment.

1. Detection of Oil In, On, and Under Ice

    The ability to detect reliably and map oil trapped in, under, on, 
or among ice is critical to mounting an effective response in Arctic 
waters. In the past, the only successful method for detecting the 
presence of oil in or under ice involved drilling holes through the ice 
sheet or by sending divers down under the ice to delineate the extent 
of a spill. This method is expensive, labor intensive, and exposes 
personnel to the vagaries of extreme weather.
    In 1999, the MMS initiated a project to evaluate potential remote 
sensing techniques to detect oil trapped within and under ice. Of the 
many technologies recently reviewed, only ground penetrating radar 
(GPR) showed potential. Between 2003 and 2008 the MMS initiated four 
international joint industry projects to develop GPR into a functional 
remote monitoring sensor. Two of these projects conducted offshore 
Svalbard, Norway involved a permitted, intentional oil release for 
research purposes.

2. Oil Spill Thickness Sensor

    One of the most important initial steps in response to an oil spill 
at sea is the assessment of the extent of the oil slick and the 
quantity (i.e., thickness) distribution of oil within it.
    A critical gap in spill response is the lack of capability to 
measure and map accurately the thickness of oil on water and to rapidly 
send this information to response personnel in the command post.
    In testimony given before the Subcommittee, Mr. Doug Helton of 
NOAA, cited the need for remote sensing technologies during the Cosco 
Busan oil spill to detect oil effectively, determine areas of the 
thickest amounts of oil, and then use this information to direct 
skimming operations to increase the recovery of spilled oil.
    In November 2005, the MMS initiated a research project that would 
enable the measurement of oil slick thicknesses using multi-spectral 
aerial imagery. The California Department of Fish and Game, Oil Spill 
Prevention and Response (DFG/OSPR) partnered with MMS on this project 
and provided technical expertise with the Geographic Information System 
component of this project. Over a three-year period (2005-2008) the 
aerial mapping system was developed through a systematic approach which 
included many overflights of the Coal Oil Point, CA natural oil seeps. 
In November 2007, remote aerial sensing of the Cosco Busan oil spill 
was performed using the prototype thickness sensor mounted to a small 
plane and flown over the spill area to test the system under actual 
field conditions. The sensor performed as expected and could 
effectively identify the extent and high density areas of the spill. 
Under commercial application this aerial thickness sensor could have 
been used to prioritize clean-up activities. The full system 
integration flight of the aerial thickness mapping system was 
successfully completed in November 2008.
    On December 7, 2008, there was an oil spill from Platform A in the 
Santa Barbara channel due to a ruptured tank. The California Department 
of Fish and Game, Oil Spill Prevention and Response used the aerial 
thickness mapping system to acquire image data. The data was 
immediately processed and made available to the Unified Command center 
for guiding response operations. The data was used to recover 
successfully the spilled oil over a five-day period and none of the oil 
hit the shoreline.

3.  Mechanical Containment and Recovery in Arctic Ice Environments

    More than a decade of MMS research has focused on methods to 
improve the effectiveness of equipment and techniques for the 
mechanical recovery of oil spills in ice-infested waters. This research 
has substantially improved mechanical recovery of oil spills in Arctic 
environments. In October 2004, the MMS initiated a research project 
with the University of California, Santa Barbara (UCSB) to study the 
process of oil adhesion to the surface of oil skimmers and to identify 
parameters to improve their efficiency. Over a three year period (2004-
2007), numerous laboratory, small and large scale tank tests were 
conducted to improve the mechanical recovery of oil. Research results 
demonstrated that changing the surface pattern of the drum will improve 
recovery efficiency by over 200 percent. The results from this research 
project were patented by UCSB and the principal investigator (PI). The 
PI was awarded her doctoral degree as a result of her research. There 
are at least six types of grooved skimmers being commercially sold 
around the world that resulted from this research.

4. In Situ Burn Research
    MMS was designated as the lead agency for in situ burn research 
(ISB) in the Oil Pollution Research and Technology Plan prepared under 
the authority of Title VII of the OPA 90. The use of ISB as a spill 
response technique is not new, having been researched and employed in 
one form or another at a variety of oil spills since the 1960's. 
Burning as a response tool for oil spills in broken ice has been 
researched since the early 1980's using both tank tests and medium to 
large-sized experimental spills. Many scientists and responders believe 
this technique is among the best option for oil spill response in the 
Arctic, especially with a high degree of ice coverage. Between 1995 and 
2003, the MMS partnered with the National Institute of Standards and 
Technology to conduct more than ten different ISB research projects.
    To disseminate results of eight years of intensive ISB research, 
the MMS assembled a comprehensive compendium of scientific literature 
on the role of in situ burning as a response option for the control, 
removal and mitigation of marine oil spills. All operational aspects of 
burning are covered in detail. It contains more than 350 documents with 
over 13,000 pages and nearly one hour of video. The MMS has distributed 
more than 2,000 ISB-CD sets worldwide.
    In situ burning is now considered a viable countermeasure for 
offshore oil spills. Regional Response Teams (RRT) and Area Committees 
are integrating the use of in situ burning into their response 
protocols and contingency plans. Overall the opportunity for use, 
growing inventory of equipment resources and the trend for Federal On-
Scene Coordinators (FOSC's) and RRT's to seriously consider and more 
readily approve its use indicate an expanded role for in situ burning 
in the Arctic.

5. Dispersants in Cold Water/Broken Ice Environments

    The use of chemical dispersants in is another important option in 
oil spill response.
    The Ohmsett facility is rapidly becoming a world leader in 
realistic dispersant testing through the design and development of a 
calibrated, referenced and realistic test protocol and subsequent 
testing under cold and temperate conditions using a variety of crude 
and fuel oils. Ohmsett is the world's largest wave-tank complex 
presently conducting dispersant research and is a logical venue for 
bridging the gap between laboratory and field testing. The National 
Research Council strongly supported the use of wave tank testing in 
their recent review of chemical dispersants. In the past seven years 
there have been fourteen major dispersant research projects conducted 
at Ohmsett. Experiments at Ohmsett have demonstrated that dispersants 
are effective in near-freezing water temperatures but this is highly 
dependent on the properties of the crude oil. Dispersants can be 
effective in broken ice if there is some mixing energy present (wind, 
waves, movement of ice floes caused by wind, waves, and currents). 
Dispersants can potentially provide an invaluable third response option 
when strong winds and sea conditions make mechanical cleanup and in 
situ burn techniques unsafe and/or ineffective.
    Results from dispersant testing at Ohmsett are being used by local, 
State and federal regional response teams and regulators to support the 
use of dispersants as an oil spill response tool in their 
jurisdictions. Results from dispersant testing in cold water/broken ice 
conditions at Ohmsett have been used by industry to gain regulatory 
approval for the use of this countermeasure for the Sakhalin Island 
project in Russia and for planned projects in the Canadian Beaufort 
Sea.

6. Chemical Herders

    Spilled oil rapidly spreads on the waters' surface into very thin 
slicks. Chemical herders have the ability to quickly clear oil films 
from the waters' surface. The intention of herding is to thicken oil 
slicks sufficiently to allow them to be cleaned up with conventional 
mechanical containment systems or through the use of in situ burning or 
the use of dispersants.
    Since 2004, the MMS and ExxonMobil have jointly funded research to 
evaluate using herders to extend the window of opportunity for oil 
spill response options in Arctic environments. Research efforts have 
focused on the use of herders to thicken oil slicks in broken ice to 
allow them to be effectively ignited and burned. Three years of 
laboratory, small and large scale tank tests were completed. In May 
2008, two full scale burn experiments were successfully conducted 
during an intentional oil spill exercise offshore Svalbard, Norway. In 
February 2009, the MMS conducted research on the use of herders to 
improve the efficiency of mechanical containment and recovery systems. 
More than 400,000 pounds of ice was delivered to Ohmsett for these 
experiments. Research on the use of herders to expand the use of 
dispersants will be conducted at the Ohmsett facility in October 2009.

Oil Spill Response Research Outreach

    The MMS collaborates with State, Federal and international 
governmental agencies, organizations, and private industry to 
coordinate oil spill response research and Ohmsett testing. We also 
participate in international, regional and local conferences, workshops 
and meetings to present the results of MMS funded OSRR projects. We 
publish and disseminate the results of OSRR projects as widely as 
possible in peer reviewed scientific papers and articles, in technical 
journals and reports and in public information documents. The MMS 
sponsors and participates in Arctic related oil spill response 
workshops and conferences to disseminate results from the OSRR program 
and from Ohmsett testing, training and research activities to the 
public. The MMS maintains a website that contains a listing of all 
Arctic OSRR projects funded by the MMS as well as downloadable reports 
and film clips free of charge.
    The Ohmsett facility also plays an important role in environmental 
outreach by informing the oil spill community of oil spills, 
environmental contamination, cleanup methods and testing. Ohmsett's 
recently renovated conference room enables various federal, State, 
academic and private organizations to conduct on-site committee 
meetings and conferences. Facility tours and presentations are given 
upon request. Regular attendance at both U.S. and international 
environmental conferences plays an important role in getting the 
information, the analysis and the results achieved from the research 
projects to the public.
    Publication of The Ohmsett Gazette, the facility's semi-annual 
newsletter, keeps the oil spill community abreast of recently conducted 
facility activities. Ohmsett's website describes the testing that the 
facility conducts and gives objective results of the research 
conducted. Staff members also participate in environmental education 
projects such as school science fairs, college work study programs, and 
student mentorship programs. Through this type of public interaction, 
Ohmsett is able to increase public awareness by educating the community 
of the importance of marine safety and environmental protection.

The MMS Environmental Studies Program (ESP)

    In addition to the Oil Spill Response Research, MMS also conducts 
the Environmental Studies Program which is designed to gather 
scientific information needed for stewardship of coastal and marine 
environments as we manage the development of OCS energy and minerals. A 
component of this broad-based program focuses on the collection and 
development of scientific information needed to understand and predict 
the fates and effects of potential oil spills from these OCS 
activities.
    The MMS assesses oil-spill risks associated with offshore energy 
activities on the OCS by calculating spill trajectories and contact 
probabilities. These analyses address the likelihood of spill 
occurrences, the transport and fate of any spilled oil, and the 
environmental impacts that might occur as a result of the spill. The 
MMS Oil-Spill Risk Analysis (OSRA) Model combines the probability of 
spill occurrence with a statistical description of hypothetical oil-
spill movement on the ocean surface. Paths of hypothetical oil spills 
are based on hind-casts (history) of winds, ocean currents, and ice in 
arctic waters, using the best available input of environmental 
information.
    The research to support the oil-spill risk analyses includes 
scientific observations of the ocean surface circulation in the Gulf of 
Mexico, in the Santa Barbara Channel and Santa Maria Basin offshore 
Southern California, and in the Beaufort and Chukchi Seas off Alaska. 
In addition, MMS has sponsored development of ocean surface circulation 
models in these areas, as well as most recently in the mid-Atlantic OCS 
area, to provide input for OCS lease sale environmental analyses. As 
the oil and gas industry moved into deepwater areas of the Gulf of 
Mexico, we also undertook research to characterize the deepwater 
current movements in the Gulf of Mexico to assist our assessment of a 
possible release of oil from these ocean depths. In Alaska, we have 
sponsored research to better describe the weathering of oil on snow and 
ice, and we have sponsored field studies and modeling of sea ice--ocean 
movement and the interaction with spilled oil. The Environmental 
Studies Program research management philosophy always seeks out 
partners, and much of the research described is linked to programs in 
NOAA and NASA, as well as cooperative efforts with key universities in 
the affected States.
    The MMS is committed to the continuous improvement of OSRA 
estimations and environmental impact statements (EIS) analyses, and 
uses the results of new observation and modeling to better manage OCS 
oil and gas development. As offshore activity expands into deeper 
waters and new geographic areas, MMS oil-spill modeling will be applied 
to pertinent risk assessments and validated with environmental 
observations.
    Modeling results are used by MMS staff for preparation of 
environmental documents in accordance with the National Environmental 
Policy Act; other federal and State agencies for review of EISs, 
environmental assessments, and endangered species consultations; and 
oil industry specialists preparing the oil spill response plans.

Conclusion

    Mr. Chairman, this concludes MMS's prepared statement. Thank you 
for the opportunity to present an overview of the MMS's oil spill 
response research program and the Ohmsett facility. The program 
directly supports the MMS mission of ensuring safe and sound operations 
on the OCS and has made substantive technological advances in the 
ability to detect, respond and cleanup oil spills in the marine 
environment. MMS would be happy to respond to any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
